<html>
<title> - NOMINATION OF HON. JEH C. JOHNSON</title>
<body><pre>[Senate Hearing 113-427]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-427

                   NOMINATION OF HON. JEH C. JOHNSON

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS


                             FIRST SESSION

                               __________

NOMINATION OF HON. JEH C. JOHNSON, TO BE SECRETARY, U.S. DEPARTMENT OF 
                           HOMELAND SECURITY

                               __________

                           NOVEMBER 13, 2013

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








                         U.S. GOVERNMENT PRINTING OFFICE 

86-634 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001














        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota

                   Richard J. Kessler, Staff Director
               John P. Kilvington, Deputy Staff Director
                    Beth M. Grossman, Chief Counsel
            Deirdre G. Armstrong, Professional Staff Member
         Mary Beth Schultz, Chief Counsel for Homeland Security
      Stephen R. Vina, Deputy Chief Counsel for Homeland Security
               Keith B. Ashdown, Minority Staff Director
         Christopher J. Barkley, Minority Deputy Staff Director
               Andrew C. Dockham, Minority Chief Counsel
         Daniel P. Lips, Minority Director of Homeland Security
                 Sarah Beth Groshart, Minority Counsel
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Carper...............................................     4
    Senator Coburn...............................................     6
    Senator McCaskill............................................     9
    Senator Tester...............................................    19
    Senator McCain...............................................    21
    Senator Levin................................................    24
    Senator Begich...............................................    27
    Senator Paul.................................................    32
Prepared statements:
    Senator Carper...............................................    43
    Senator Coburn...............................................    45

                               WITNESSES
                      Wednesday, November 13, 2013

Hon. Cory A. Booker, a U.S. Senator from the State of New Jersey.     1
Hon. Robert Menendez, a U.S. Senator from the State of New Jersey     3
Hon. Jeh C. Johnson, to be Secretary, U.S. Department of Homeland 
  Security
    Testimony....................................................    11
    Prepared statement...........................................    49
    Biographical and financial information.......................    52
    Letter from the Office of Government Ethics..................    76
    Responses to pre-hearing questions...........................    79
    Responses to post-hearing questions..........................   155
    Letters of Support...........................................   191
Information provided for the Record by Senator Coburn............   146

 
                   NOMINATION OF HON. JEH C. JOHNSON

                              ----------                              


                      WEDNESDAY, NOVEMBER 13, 2013

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
SD-342, Dirksen Senate Office Building, Hon. Thomas R. Carper, 
Chairman of the Committee, presiding.
    Present: Senators Carper, Levin, McCaskill, Tester, Begich, 
Heitkamp, Coburn, McCain, Paul, and Ayotte. Also present: 
Senators Menendez and Booker.
    Chairman Carper. The hearing will come to order. Thank you. 
Before Dr. Coburn and I give our opening statements, I just 
want to welcome Mr. Johnson, I want to welcome his family, and 
we will have an opportunity, I think, to meet a couple of them 
here in a few minutes, but you all are good to come. We are 
happy that you are here.
    Senator Menendez is going to be joining us shortly. But I 
think it is fitting, since Cory Booker is a new kid on the 
block, that we let him go first. We are happy that you are 
here, literally and figuratively.
    Senator Booker. Thank you very much.
    Chairman Carper. Welcome. Thank you. Have you done this 
before? Is this the first time you have introduced a witness?

TESTIMONY OF THE HONORABLE CORY A. BOOKER, A U.S. SENATOR FROM 
                    THE STATE OF NEW JERSEY

    Senator Booker. This is my first time introducing a 
witness, and it is appropriate that I should introduce somebody 
of such extraordinary caliber. So, Mr. Chairman, I appreciate 
that, you giving me the opportunity, and obviously in deference 
to the senior Senator of New Jersey, Senator Menendez--Senator 
Coburn, obviously it is good to see you as well and thank you 
for this opportunity.
    I am really thrilled today to have the chance to join 
Senator Menendez in introducing someone who I have known for 
quite some time, who is well-known in the State of New Jersey, 
and the opportunity to support the nomination of this fellow 
New Jerseyian, Jeh Johnson, as the next Secretary of the 
Department of Homeland Security (DHS).
    But out of deference, as I see the senior Senator from New 
Jersey walk in--who is instructing me to continue, so I shall 
do what I am told.
    Chairman Carper. He is on a roll. You do not want to stop 
him. Go right ahead, please. Welcome, Senator Menendez.
    Senator Booker. So I know all of the Senators here have 
seen many of letters urging the Senate confirmation of Jeh 
Johnson. They were penned not only by me, but by many others, 
many of the most respected men and women in the military 
intelligence communities. I am thrilled to see people like 
former Chairman of the Joint Chiefs, Mike Mullen; former 
Secretary of Defense, Bob Gates; and three previous DHS 
Secretaries, Tom Ridge, Michael Chertoff, and Janet Napolitano.
    Those letters reflect the respect and admiration of people 
who have worked long hours with Jeh, often on difficult and 
very complex issues. But the support that caught my eye comes 
from America's police organizations. They say something really 
important about Jeh.
    I may be new to the Senate, but as a former Mayor, I know 
that there are difficult issues facing our country, and 
specifically, we have a nation that has been targeted by 
terrorists. Indeed, the city that I represented for 7 years had 
some specific facilities targeted by terrorists. We are in a 
State that also has been hit by one of America's most costly 
natural disasters. And we have a region that remains a key node 
for immigration.
    I know how vitally important close coordination between 
Federal, State, and local agencies are. As a former Mayor, I 
can provide firsthand testimony to the strength of that 
coordination in recent years. We have made a lot of progress.
    I have spent time with Jeh and I know this is something 
that he gets, the urgency, the importance, the critical nature 
of this coordination and these partnerships. He understands 
that to keep community safe, the relationship between Federal 
law enforcement and local cops, first responders, and elected 
officials is crucial.
    That is true for DHS's counterterrorism mission where 
intelligence must be shared between cops on the beat and 
agencies at the Federal and State level. It is true for its 
work enforcing our Nation's immigration laws as well. And it is 
also true for its role in preparing for and responding to 
disasters.
    I witnessed that during Hurricane Sandy. During the 
response to that disaster, it was officials working together at 
every level that helped to limit the loss of life and to begin 
the recovery process. There is still a long way to go, as I 
discussed last week with Administration officials. But with Jeh 
at the helm of DHS, I am confident that New Jersey and 
communities all over America will have another partner and 
advocate here in Washington.
    I am proud to introduce Jeh today, as you learn more about 
him, about his strengths, about his character, about his 
ability to lead, and about his love of country. He has a true 
commitment to keep American communities safe and strong. Thank 
you.
    Chairman Carper. Thank you very much. One former Mayor 
follows another. A lot of people know Robert Menendez is a 
former Congressman, currently a Senator. Not everybody 
remembers you were a Mayor, and so, you bring me out to that 
perspective as well. We are delighted that you are here.
    Mr. Chairman, please proceed.

TESTIMONY OF THE HONORABLE ROBERT MENENDEZ, A U.S. SENATOR FROM 
                    THE STATE OF NEW JERSEY

    Senator Menendez. Well, thank you, Mr. Chairman, and to 
distinguished Ranking Member and distinguished Members of the 
Committee. I appreciate this opportunity to join Senator Booker 
in introducing a gentleman from Montclair, New Jersey, to be 
our next Homeland Security Secretary. He is a constituent, a 
friend, and a highly qualified former chief Pentagon lawyer who 
would, in my view, be as effective in his new role as he has 
been in every role he has taken on in the past.
    Mr. Chairman, as a member of the House of Representatives, 
I sat on the Select Committee that created the Department of 
Homeland Security. I was the author on the House floor of 
implementing the 9/11 Commission's recommendations in its 
totality.
    My memory is seared by the fact of the 700 New Jerseyians 
who lost their life on that fateful September day. I know what 
this Department means to our country, and I would not come 
before you to support a candidate, even if he was from my 
State, if I did not think he had the intellect, the analytical 
ability, and the management capacity to ultimately run the 
Department that is so critical to the Nation's security.
    That is why I strongly support Jeh Johnson for the position 
of Secretary of Homeland Security. Jeh has been an acclaimed 
attorney at the Defense Department where he oversaw 10,000 
lawyers, and all of the case management that flowed from that. 
So when we talk about organizational ability, he clearly has 
that in a department as large and as diverse as the Department 
of Homeland Security.
    He is a former chief counsel as well for the U.S. Air 
Force, an Assistant U.S. Attorney for the Southern District of 
New York. But beyond his extensive and impressive paper 
credentials, he has taken on the difficult issues at critical 
times. He has earned the trust of everyone who knows him, 
worked with him, seen him in action.
    His intellect and his deep analytical thinking skills, I 
think, will be critical to a department as large, as complex, 
and as important as this. That is why Secretary Gates and 
Panetta have been so supportive of his nomination. He developed 
very close relationships with them in the roles that he played 
and they came to rely upon his abilities.
    He is a leader who is not afraid to make his unvarnished 
opinions known and to make tough but intelligent decisions, and 
he has always exercised his best judgment. I have no doubts 
whatsoever that he will do the same as Secretary of Homeland 
Security.
    Jeh has had a long and illustrious career in and out of 
government. I think he will bring a profound sense and 
sensibility about national security issues to the table. I 
think the Associated Press summed up the essence of his 
qualifications to lead the Department of Homeland Security 
saying simply and clearly, Jeh Johnson has spent most of his 
career dealing with weighty national security issues as a top 
military lawyer. What better combination of qualifications, 
what better experience, I would say, is there for a potential 
Secretary of Homeland Security?
    So I strongly support Jeh as someone who would oversee the 
240,000 employees who help this Nation secure itself from many 
threats that we face, and I am very thankful to the Committee 
for the opportunity to introduce Jeh Johnson, and I urge a 
unanimous vote for his confirmation.
    Chairman Carper. Mr. Menendez, thank you very much for 
joining us. Senator Booker, you are welcome to stay for as long 
as your schedules permit. I know you have a lot going on as 
well and your other obligations, so feel free to leave when you 
need to.

              OPENING STATEMENT OF CHAIRMAN CARPER

    Chairman Carper. Today we meet to consider the nomination 
of Jeh Johnson to serve as Secretary of the Department of 
Homeland Security. As we all know, the President has asked Mr. 
Johnson to take on a difficult and demanding job. The 
Department is comprised of 22 distinct agencies spread across 
various locations throughout this greater Washington, D.C., 
area and, indeed, throughout the country.
    Although progress has clearly been made in bringing these 
22 agencies together, 10 years after its creation, the 
Department of Homeland Security still lacks cohesion and a 
strong sense of team. Employee morale at the Department of 
Homeland Security remains perhaps the lowest among major 
Federal agencies.
    Moreover, the Nation's fiscal challenges and the effects of 
sequestration mean that DHS will face even more obstacles that 
make working toward getting better results with fewer Federal 
dollars even more important. All in all, even on a good day, 
serving as the Secretary of the Department of Homeland Security 
is a really hard job.
    Fortunately for Mr. Johnson, there are few better places to 
learn how to manage a complex national security bureaucracy 
than at the Department of Defense (DOD). Mr. Johnson has been 
confirmed by the Senate twice before, once as the Air Force's 
top lawyer and once as the top lawyer for the entire Department 
of Defense.
    In part because of his experience in these positions and 
other demanding roles, Mr. Johnson is prepared to face the 
challenges that will await him if he is confirmed by the 
Senate. For 4 years, he was a major player in running the 
Defense Department. He provided key advice to not one, but two 
exceptional Defense Secretaries, Bob Gates and Leon Panetta, 
both of whom we know and respect. They have given him 
invaluable experience for the huge task to which he has been 
nominated.
    Mr. Johnson has received high praise from many. The 
Committee received a joint letter of recommendation, just in 
the last day or so, from the three individuals who have 
actually held this position before, Tom Ridge, Judge Chertoff, 
and former Governor Napolitano. Each of them touted Mr. Johnson 
as, quote, an eminently qualified nominee, and urge the 
Committee to quickly approve his nomination.
    Here is what former Defense Secretary Gates, a strong 
manager himself, said about Mr. Johnson and his time at the 
Department of Defense. This is a quote. Take my word for it. 
Jeh Johnson has successfully managed an array of major 
initiatives across the biggest bureaucracy in the government, 
and in so doing, won the esteem of virtually everyone with whom 
he worked. Those are Bob Gates's words.
    Former Chairman of the Joint Chiefs of Staff (JCS), Admiral 
Mike Mullen, has also expressed his deep confidence in the 
nominee. Here is what he had to say about Jeh Johnson. Jeh is 
as fine a person and professional as I have ever met. I am 
confident in his choice, and that he will succeed in leading 
this most complex organization at a critical time in our 
country.
    In a similar letter, former U.S. Attorney General Michael 
Mukasey, added, Jeh Johnson will bring to the Department of 
Homeland Security not only experience, but also a frame of mind 
that should be a source of assurance to anyone concerned with 
the security of this country. He understands both the issues 
and the stakes and will make an excellent Secretary.
    Mr. Johnson has also received encouraging words of praise 
from Fran Townsend, former Homeland Security Advisor to 
President Bush, as well as from former Secretary of Defense, 
Leon Panetta; General John Allen, the former Commander of U.S. 
forces in Afghanistan; and a number of law enforcement groups.
    Mr. Johnson, of course, will not be alone in his task of 
leading DHS. It is critically important Mr. Johnson be allowed 
to surround himself with a capable leadership team. We can 
help. Indeed, we need to. Currently at DHS there are 13 
Presidentially appointed positions that are without a permanent 
replacement. Of these, nine require Senate confirmation. I 
describe this as Executive Branch Swiss Cheese.
    As we consider Mr. Johnson's nomination, we must remember 
that protecting the homeland is a team sport, and those of us 
in the legislative branch are critical members of this 
important team. Once Mr. Johnson is confirmed, we need to do 
our part to expeditiously vet and hopefully confirm his 
leadership team as well.
    Before I turn to Dr. Coburn for his remarks, let me again 
offer to Mr. Johnson the same advice publicly that I shared 
with him when we met in my Senate office recently. I said to 
him, eagerly seek the counsel of former DHS Secretaries. Talk 
to Tom Ridge, Michael Chertoff, Janet Napolitano, as well as 
former Deputy Secretary Jane Holl Lute. Spend a lot of time 
with the Government Accountability Office (GAO) Comptroller 
General Gene Dodaro.
    They want you and the Department to succeed. Ask for their 
help. Do not be shy about asking for their advice again and 
again. The same should hold true for reaching out to former DOD 
Secretaries Bob Gates and Leon Panetta. They hold you in very 
high esteem, obviously. They also know what you are up against. 
Lean on them. Their collective advice will prove invaluable to 
you as you take on the role and the tasks that lie ahead.
    In closing, let me reiterate my strong support of Mr. 
Johnson's nomination and my appreciation for his willingness to 
serve the people of this country in this new role. I want to 
call on my colleagues, both Democrat and Republican, to join me 
in voting to confirm him as soon as possible.
    Mr. Johnson, if you are fortunate enough to be confirmed, I 
look forward to working with you in the coming months and years 
to better protect our homeland and its people.
    And I would just say to your family, who is gathered here 
today, your wife and your two children, a sister or two, others 
in your family that I suspect you will probably acknowledge 
when you make your comments, I just want to say especially to 
your immediate family and to your parents--your parents 
especially, thank you for raising this man. Thank you for 
instilling in him the values that we need in leadership roles 
in our country.
    And to his immediate family, his wife and children, thank 
you for sharing with our country once again a very good man.
    Dr. Coburn.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. Well, thank you, Mr. Chairman. I have a 
lengthy opening statement and I apologize for that, but I think 
it is necessary in this case.
    Mr. Johnson, welcome. We have had great visits. I thank you 
for being here today. I personally want to thank you for 
stepping forward to fill this position. I think it is the most 
difficult position of all the Cabinet Secretaries. I can not 
think of one that comes anywhere close to it, because of the 
difficulties, but also because of the responsibilities.
    It is clear to me that you are an honorable man, from all 
the people that I have heard from, also from my encounter in 
terms of your intelligence. It is far above mine and most of 
the Members of Congress, which is exactly what we want. I have 
appreciated your commitment to being transparent with us and 
working with our Committee to address the fiscal and structural 
issues that are facing the Department of Homeland Security.
    And when you are confirmed--I am not going to say if, I 
think you are going to be confirmed--I surely hope we can work 
together through the upcoming years to fix the Department of 
Homeland Security, where it is broken, and to make our Nation 
much more secure.
    Some people may consider the nomination process a series of 
formalities, but it is important for us to understand one's 
experience and qualifications. I am extremely disturbed by the 
responses to the questionnaire because the staff, either the 
legislative staff or the White House, has cut and pasted the 
identical answers to 23 questions in your response, identical 
responses to that of other nominees before this Committee.
    So they are not your answers; they are their answers. And 
the shoddy work associated with that does not serve the 
Committee well. I would like to enter these into the record now 
to show the duplications and the exact words that have been 
thrown before this Committee before, and the whole purpose for 
the questionnaire is for us to get your thoughts, not 
legislative assistants' thoughts at Homeland Security or 
somebody at the Office of Management and Budget (OMB) but your 
thoughts.\1\
---------------------------------------------------------------------------
    \1\ The information provided for the Record by Senator Coburn 
appears in the Appendix on page 146.
---------------------------------------------------------------------------
    So until those are corrected and we actually have Mr. 
Johnson's response, I will not consider that his questionnaire 
has been completed.
    Chairman Carper. Without objection.
    Senator Coburn. That does not serve Mr. Johnson well and 
that is one of the problems at Homeland Security, is sometimes 
the Secretary is not served well by their staff. So I look 
forward to our hearing today, but I also look forward to 
hearing those responses. And by hearing your own responses and 
views about the Department and, there is nothing wrong with an 
``I do not know,'' because we cannot expect you to know 
everything now.
    There is nothing wrong with that and that is the kind of 
footing I want to start out with. We certainly do not know a 
lot of answers and we could not expect you to know all the 
answers until you get into it. You stand to be the fourth 
Secretary of Homeland Security. The three previous were highly 
intelligent and dedicated public servants with significant 
experience.
    If they were here today, I would expect they would be the 
first to admit they have not adequately fixed all the known 
challenges that face the Department of Homeland Security. 
Through oversight work of both this Committee and others, we 
have identified a series of problems at Homeland Security's 
programs that I would like to bring to your attention and ask 
that you focus on if you are confirmed.
    We may not be right in our assessments, but as you and I 
have spoken privately, it is important for you to get input 
from all sources. And so, I have prepared a binder for you, 
which I will give to you today. I do not expect you to read it 
in the next week or two, but it is a different viewpoint than 
what you are going to hear inside the organization.
    I can tell you, for us to be successful in Congress in 
getting Homeland Security what it needs and the resources it 
needs, there has to be confidence in Congress on a lot of these 
problems. But let me just highlight a few of them.
    Establish the proper balance between freedom and security. 
That is a real issue at Homeland Security. The American people 
understand that we cannot achieve 100 percent security without 
sacrificing some of their freedoms and Constitutional rights. 
But our goal and our responsibility is to strike the right 
balance.
    DHS has committed to working, in its Office of Privacy and 
Civil Liberties (OPCL), but our oversight work has found that 
it is often unable to do so. Customs and Border Protection 
(CBP) owns ten cutting-edge drones and surveillance equipment 
for them.
    As required by law, before putting those in the air, they 
were supposed to do individual civil liberties protections and 
have a plan for those. None of that was done. It still has not 
been done and if it has been done, it has not been communicated 
back to the Committee. So that is a balance between law and 
responsibility that the Department has failed on.
    Evaluate what DHS is spending on counterterrorism and 
intelligence programs. We had a terrorist attack in 2001. 
Everybody knows that led to the creation of the DHS. But after 
10 years, it is not clear that DHS's intelligence and 
counterterrorism initiatives are making this country measurably 
safer.
    The preparedness grants, the fusion centers are all areas 
that have highly questionable effectiveness in terms of 
preventing further terrorism.
    The third area is to prove to the American people that the 
Department of Homeland Security can secure our borders and 
enforce our Nation's immigration laws. And I understand that 
one of your priorities, if confirmed, is to prepare DHS to 
handle its responsibilities if comprehensive immigration reform 
were to pass. Frankly, the best way we could do that would be 
to prove to the American people that DHS is capable in securing 
the border now and handling the responsibilities that they have 
now, which they are not. Over the past 10 years, we have spent 
$90 billion on border security; yet, we know that our Southern 
Border is not secure.
    An independent analysis from the Council on Foreign 
Relations estimated the apprehension rate at the Southern 
Border was 40 to 55 percent, versus DHS's own numbers of 75 to 
80. We know that millions of people are living here in 
violation of our immigration laws, having overstayed their 
visas and some of those are in violation of our current 
criminal laws as well. Yet, DHS has done little to address that 
problem.
    And frankly, we have heard from frontline personnel that 
DHS is not actively enforcing our immigration laws or deporting 
people who are known to be a risk to public safety right now.
    The fourth area, the Department needs to prove that it can 
work with the private sector and provide value in addressing 
key threats like cybersecurity before expecting new 
responsibilities. And I will not go into the details of that 
and I will try to hurry, Mr. Chairman.
    The fifth area that DHS has not managed effectively is 
major acquisition programs. There are many areas that we have 
made inquiries on that and we have yet to get a response. One 
of the things that encourages me in our conversations is the 
commitment that you will be responsive and transparent to us. 
And yet, we have waited months, and sometimes years as the 
Committee of jurisdiction, to get answers to our questions.
    The Federal Emergency Management Agency (FEMA) Disaster 
Declaration process needs to be fixed. One of the areas that we 
have seen marked improvement is in FEMA, and I congratulate the 
Department. Another one of the areas we have seen marked 
improvement is the Coast Guard, which I congratulate the 
Department on.
    To be clear, being Secretary of the Department of Homeland 
Security is one of the most challenging positions in our 
government, and I believe you will be confirmed.
    But my hope is, that you will, in fact, renew your 
commitment to the Committee and to me personally that you will 
run a transparent shop, being responsive to us and our 
concerns, not only giving us an opportunity to have education 
from you on what the facts really are, but also to receive 
information, in turn, on what we are seeing in the respective 
areas across the country.
    There is too much at stake for us not to work together to 
fix the Department of Homeland Security. As Senator Carper 
noted, morale is at the lowest level, by the surveys done by 
the Office of Personnel Management (OPM), of any department 
within the Federal Government. That is a function of 
leadership, and I think you have those qualities to instill 
that, to rebuild this organization, and to put it in a place 
where it needs to be.
    The American people are counting on us, but they are going 
to be counting on you, and there is simply too much at stake 
for us to fail. I hope that you will earn this Committee's 
trust. You have earned mine thus far and I look forward to 
working with you in this very important job.
    Chairman Carper. Let me say to my colleagues, as you know 
on this Committee, we work under the early bird rule and after 
the Chair and the Ranking Member have given statements, we turn 
to the witnesses to testify, and then we recognize the Members 
in order as they have come in to ask questions.
    Ms. McCaskill was the next one here, and Senator Tester, 
Senator Heitkamp, followed by Senator McCain. Others may come 
as well.
    I just want to say just a quick followup to Tom's comments. 
We take seriously the opportunity to engage with you and really 
to understand you better as a human being, your priorities and 
really your values and how they were developed, and your 
approach to managing a big department like this.
    I want to say thank you for your willingness to meet with 
all of us who serve on this Committee. I understand you have 
tried to meet with Senator Paul and, I think, Senator Portman, 
and not been able to get onto their schedules yet, but I 
appreciate your trying and I hope you will continue to do that. 
I am sure you will.
    I am told by our bipartisan staff--that you spent some 2 
hours or more in meeting with them privately and answering, as 
I am told, every question that they asked. And you stayed until 
the last man or woman standing and answered all their 
questions. Some very well, maybe some not so well, and we would 
not expect you to know everything, that is for sure.
    We will have the opportunity today to ask you questions and 
we will stay here, basically, until we run out of questions and 
you run out of endurance, and I do not think it will take too 
long.
    But if you would, I think, it is not uncommon for--I think 
you had over 100 questions to answer and a lot of those 
questions are multi-part. Some of those questions, I do not 
expect you to be able to answer, and it is not surprising that 
you would not rely on, to some extent, on the folks who are at 
the Department and their job is to help the nominees.
    I would just ask that you go back through the information, 
the questions that Dr. Coburn is going to send to you. Go 
through them and edit them, just mark them up, and give them 
back to him promptly and we can move forward.
    Senator McCaskill has to run and I am going to ask, if my 
colleagues do not mind, just to let her go out of order. If you 
would, just go ahead.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. Thank you so much. I really appreciate 
it, Mr. Chairman. I will just take a minute. I actually have to 
leave, Mr. Johnson, to go to the outside panel within the DOD 
that we appointed to look at the problem of sexual assault in 
the military, and they are having a technical session today and 
the complexities and the technical nature of that problem is 
one that I feel compelled to go over and address them on, so I 
cannot stay for the duration of the questioning of you and your 
testimony.
    I just want to briefly put in the record the five areas 
that our Subcommittee on Financial and Contracting Oversight 
has worked on the most in terms of issues at Homeland Security, 
and those will be ones that I would hope to work with you to 
address continuing serious problems that plague DHS.
    The first is right-sizing DHS and balancing the contractor 
and Federal workforce; the ability of DHS to function as a 
single cohesive department; the role of DHS Science and 
Technology Directorate and whether or not it is a pass-through 
or whether it is an effective organization based on what its 
mission was intended to be; the role of DHS in the procurement 
of bioterrorism countermeasures; and finally, the inability of 
DHS to obtain a clean audit.
    Those are the five areas that we will continue to work on 
in our Subcommittee and continue to work with your agency to 
see if we cannot do much better. There is a lot of room for 
improvement. I think we are thrilled that you are willing to 
continue to serve your government. You have done so in an 
honorable and competent, in fact, stellar fashion for many 
years. And I also want to thank your family for making the 
sacrifices necessary for you to lead this important agency, and 
I look forward to working with you after confirmation.
    Chairman Carper. All right. Senator McCaskill, thanks for 
joining us. And my thanks to our colleagues for indulging her 
in those remarks.
    I think the next thing I want to do is to introduce our 
witness. It will just take a minute or two. As I mentioned in 
my opening statement, Mr. Johnson has been confirmed by the 
Senate not once, but twice before. In October 1998 in the 
Clinton Administration, Mr. Johnson became the General Counsel 
of the Department of the Air Force following nomination and 
confirmation by the Senate. Do you recall what the vote was on 
your confirmation?
    Mr. Johnson. I am sorry?
    Chairman Carper. Do you recall what the vote was on your 
confirmation?
    Mr. Johnson. I suspect it was, voice vote.
    Chairman Carper. Nail biter. By voice vote, it probably 
was. In February 2009, you became General Counsel of the 
Department of Defense following nomination and confirmation by 
the Senate. In this capacity, he served as the chief legal 
officer of the Department of Defense and the legal advisor to 
the Secretary of Defense, indeed to two of them.
    Mr. Johnson's previous public service included serving as 
an Assistant U.S. Attorney for the Southern District of New 
York. The nominee has also been and currently is a successful 
attorney at the law firm of Paul, Weiss, Rifkind, Wharton & 
Garrison.
    Mr. Johnson, you may proceed with your statement and 
introduce your friends and your family that are with you here 
today. Again, thank you for being here.

 TESTIMONY OF THE HONORABLE JEH C. JOHNSON,\1\ NOMINATED TO BE 
        SECRETARY, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Johnson. Thank you very much, Mr. Chairman, Ranking 
Member Coburn, Senators of this Committee. Thank you for 
scheduling this hearing to evaluate my nomination. I want to 
thank Senators Menendez and Booker for taking the time to be 
here to offer their remarks and I appreciate their generous 
words.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Johnson appears in the Appendix 
on page 49.
---------------------------------------------------------------------------
    I would like to introduce my immediate family: my wife, Dr. 
Susan DiMarco; my daughter, Natalie Johnson; my son, Jeh 
Charles Johnson, Jr.; and my sister, Marguerite Johnson Crocker 
of Birmingham, Alabama. I am pleased that they can be here. I 
think the public officials in the room will appreciate and know 
that the burdens of public office are made lighter by the 
support and engagement of your family.
    I am honored by the trust and confidence that President 
Obama has placed in me by nominating me to be Secretary of 
Homeland Security. I appreciate the letters of support 
addressed to this Committee from the law enforcement 
organizations, retired senior military officers, former 
officials of both the Bush and Obama Administrations.
    I respectfully submit that I am ready, willing, and able to 
lead the Department of Homeland Security. I have experience in 
law enforcement. As a Federal prosecutor in New York, I worked 
with law enforcement officers of the Secret Service, what was 
then called the Immigration and Naturalization Service (INS), 
the Federal Bureau of Investigation (FBI), the Drug Enforcement 
Administration (DEA), and other Federal, State, and local law 
enforcement agencies.
    I have experience as a key member of the management team of 
a large and complex government agency. For 27 months, I was 
part of the senior management team of the Department of the Air 
Force. For 4 years I was part of the senior management team of 
the Department of Defense. During that time, I sat at the right 
hand of, learned from, and supported two outstanding Americans 
in Secretary of Defense, Robert Gates and Leon Panetta. At the 
same time, as the senior lawyer in the Department of Defense, I 
led a legal community of over 10,000 civilian and military 
lawyers.
    During the 4-years of President Obama's first term, I was 
at the center of the development and execution of many of this 
Administration's counterterrorism policies. Last year I worked 
closely with Secretary Panetta as he coordinated the Department 
of Defense's contributions to the response to Hurricane Sandy.
    The missions of DHS are to prevent terrorism and enhance 
security, secure and manage our borders, enforce and administer 
our immigration laws, safeguard and secure cyberspace, and 
ensure resilience to disasters. If confirmed, I will vigorously 
pursue all of these missions. They represent the most basic and 
important services a government can provide for its people.
    If confirmed, I will work to reinforce, among all the women 
and men of the Department, the common unifying mission that 
binds them together, homeland security. If confirmed, I pledge 
to be a champion for every man and woman of the Department of 
Homeland Security and their families.
    I will mourn the death of any man or woman in the 
Department, including those killed in the line of duty like the 
Transportation Security Administration (TSA) Officer Hernandez 
on November 1. Those at the Department of Defense know that I 
worked hard to earn the respect of all the men and women in 
uniform from the Chairman of the Joint Chiefs of Staff, our 
four-star combatant commanders, to the more junior officers and 
enlisted personnel who risk their lives in special operations.
    My family and I spent Thanksgiving 2010 at a military 
hospital in Landstuhl, Germany. I spent Thanksgiving 2012 with 
the troops at a remote command outpost in Afghanistan in the 
mountains near Pakistan. I was honored when an elite team of 
Navy SEALs attended my farewell at the Pentagon.
    If confirmed, I will devote time and attention to the 
management issues that I know DHS faces. As this Committee 
knows, there are leadership vacancies within DHS of alarming 
proportions. As I speak, the department of government charged 
with the vital mission of homeland security has no Secretary, 
no Deputy Secretary, and a number of other senior positions are 
vacant. If confirmed as Secretary, my immediate priority, 
starting the day I take the oath, will be to work with the 
White House and the Senate to fill the remainder of these key 
leadership positions.
    The other management challenges faced by DHS are also well 
known to this Committee. If confirmed, I intend to continue the 
progress toward unqualified audited financial statements. I 
will work to get DHS off the GAO high-risk list. I will be a 
hawk when it comes to identifying fraud, waste, and abuse in 
the use of taxpayer dollars.
    If confirmed, I pledge not to shrink from difficult or 
controversial decisions. Those at the Pentagon and in the field 
know my track record in this regard, ranging from politically 
charged matters of personnel policy to the legality of lethal 
force.
    If confirmed, I will work to implement all legislation 
enacted into law. Like President Obama, many in Congress, the 
business community, and most of the American public, I support 
comprehensive, common sense immigration reform. If reform is 
enacted into law, I will work to prepare DHS to administer the 
changes in law and ensure that DHS has the staff resources and 
capability to do so.
    If confirmed, I intend to be transparent with the American 
people about our efforts on their behalf. While the senior 
lawyer for the Department of Defense, I made the extra effort 
to publicly explain and defend U.S. national security policies, 
including in speeches at the Heritage Foundation in October 
2011 and the Oxford Union in November 2012. I supported the 
declassification of the military's counterterrorism efforts in 
Yemen and Somalia in the War Powers Report submitted by the 
President to the Congress in June 2012.
    And if confirmed, I pledge transparency and candor with 
Congress. Those of you from the Armed Services Committee know 
that these are not just words from me. Here again I have a 
track record. From Secretaries Gates and Panetta, I learned 
that a little bipartisan candor goes a long way and promotes 
goodwill among all of us who came to Washington for the common 
purpose of serving the Nation.
    I have tremendous respect for the U.S. Senate and its 
prerogatives. Thirty-five years ago, I worked in this very 
building as a summer intern for Senator Daniel Patrick 
Moynihan. I was an impressionable 20-year-old college student 
then. All summer I sat in a back office with the Senator's 
press secretary, Tim Russert, clipping press, literally, 
running errands, and researching legislation. The experience 
was exciting and formative and it did much to inspire my public 
service.
    There is another thing that motivates me to leave private 
life one more time to accept this particular assignment. In my 
family photo album is a childhood picture of me and my sister 
standing next to my dad's red 1966 Buick convertible in what 
was then the public parking lot in front of the U.S. Capitol. 
The most striking thing about the photo is that our car is 
parked just a few feet away from the steps to the Eastern front 
of the Capitol building. I look at the photo today and realize 
that it captures a period in our history that is probably lost 
in my lifetime and perhaps forever.
    September 11 and the other terrorist attacks here changed 
all of that. As I said in the Rose Garden on October 18, I am a 
New Yorker and September 11 happens to be my birthday. I was 
present in Manhattan that day and was an eyewitness to the 
events of that day. I know the shock and the potential for 
death and destruction that a breach of our homeland security 
can cause. I also recall the sinking feeling of guilt and 
uselessness that I personally felt in the face of that tragedy 
because I had left public service at the Pentagon just 8 months 
before. September 11 changed me, it changed millions of us, it 
motivates me to answer this call to lead the men and women of 
the Department of Homeland Security.
    Thank you for your time and attention and I look forward to 
your questions.
    Chairman Carper. Thank you very much for that testimony. I 
read the testimony going home on the train last night and got 
to the last part and it was very moving, still is very moving.
    Our Committee rules require that when you answer our 
questions you need to be under oath. You have done this before 
a time or two, so I am going to ask you to stand and I will 
administer this oath and then we will jump right into the 
questions. Would you please stand? Raise your right hand.
    Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Johnson. I do.
    Chairman Carper. Please be seated.
    I am going to start our questions with the three standard 
questions that we ask of all nominees, and if you would just 
answer each one after I have asked that question. First 
question, is there anything you are aware of in your background 
that might present a conflict of interest for the duties of the 
office to which you have been nominated?
    Mr. Johnson. No, sir.
    Chairman Carper. Do you know of anything, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Mr. Johnson. No, sir.
    Chairman Carper. And finally, do you agree, without 
reservation, to respond to any reasonable summons to appear and 
testify before any duly constituted Committee of Congress if 
you are confirmed?
    Mr. Johnson. Yes, sir.
    Chairman Carper. Thank you. Take just a minute and talk to 
us about your parents. Tell us, if you will, specifically about 
the values that they instilled in you, and maybe your sister, 
but the kind of values that they instilled in you that have 
enabled you to have, I think, a remarkable career today and 
have prepared you that might even help you in the days that lie 
ahead of you if are confirmed.
    Mr. Johnson. Thank you for that question. My parents could 
not be here today. They are in my hometown, Wappinger Falls, 
New York. They live in the same home that they and I have lived 
in for almost 50 years. I am sure they are watching right now.
    Chairman Carper. I thought they might be.
    Mr. Johnson. They are, I am sure, if my dad could find the 
right C-SPAN channel.
    Chairman Carper. Maybe we will have a lot of reruns.
    Mr. Johnson. From my dad, stability, I think the right 
values set. My mother, a positive outlook, never give up, never 
accept limitations on your own abilities. She encouraged me to 
do that when I was a C and D student in high school. My 
guidance counselor told her, your son should go to a 2-year 
college. She refused to accept that and continued to push me 
harder, and I have tried to do the same with my own kids.
    Chairman Carper. Dr. Coburn and I had a chance to meet them 
and I would say you have imparted some pretty good values in 
them as well.
    The Department of Homeland Security just turned 10 years 
old this year, and although the Department has certainly 
experienced growing pains, clearly it has come a long way in 
improving our homeland security and maturing the Department.
    Let us talk a little bit about vision. If confirmed, what 
is your vision of where you want to take this Department in the 
years to come? So what is your vision? Where do you want to 
take the Department? What would be some of your key priorities? 
And finally, what do you think are the most significant 
challenges that you would face?
    Mr. Johnson. Every time I have accepted a public service 
position, my overriding goal is to leave the position a little 
bit better than I found it. I believe you are correct that DHS 
has had some growing pains over the last 10 years, this is a 
very large bureaucracy, 22 components with rather different 
missions. My first priority will be to work to fill the 
remainder of the management vacancies, if I am confirmed.
    The substantive priorities are well known. I hope to be 
vigilant with respect to counterterrorism, border security, the 
effective administration of our immigration laws, responding to 
natural disasters. I also believe we need to move the ball 
forward on cybersecurity. Cybersecurity is something I became 
acquainted with at DOD.
    The other management issues that are well known to this 
Committee I recognize I must devote time and attention to. I 
would like to see DHS get off the GAO high-risk list. I read 
that report. I have read much of Dr. Coburn's writings on DHS, 
on management efficiency. I agree with much of it. I agree with 
what he had to say about the Pentagon, for example, in many 
respects.
    So the management issues are things that I expect to devote 
time and attention to. But we need to be vigilant in respect to 
Homeland Security. I recognize the issues with morale. I saw 
the most recent report. I hope to be a visible leader, remind 
people of the importance of the overriding unifying mission of 
Homeland Security, and I will work very hard, all my energy, to 
pursue all these missions, because I do believe that homeland 
security, protection of public safety and the American public 
is the core mission of the U.S. Government.
    Chairman Carper. All right. Thank you. As I mentioned 
earlier, and others have alluded to it, you are the former 
General Counsel to the Air Force, the Department of Defense as 
well. You have had the privilege of advising and working 
closely with some outstanding leaders and very gifted managers. 
Bob Gates and Leon Panetta are among those. You have also had 
the honor of working alongside literally thousands of brave men 
and women who put on the uniform every day and go out there and 
serve our country.
    Could you just share with us some of the lessons that you 
have learned about in those years, particularly working closely 
with Bob Gates and Leon Panetta, especially some of the lessons 
you have learned about leadership, some of the lessons you have 
learned about managing a large organization, and some of the 
lessons you have learned, maybe, about public service that will 
help better equip you to lead this Department? So leadership, 
management, and public service.
    Mr. Johnson. Secretary Gates and Secretary Panetta had, in 
my view, two distinct styles of management, which were both 
very effective in their own respects. DOD is larger that DHS, 
but it is very different in certain respects. I thought that 
they were both very disciplined, very focused, delegated when 
they needed to, focused on certain issues closely when they 
needed to. I expect to follow that model.
    Being able to monitor the events of what is going on in a 
very large bureaucracy with a lot of different components is a 
challenge. I recognize the importance of regular communication 
with component leaders. I also recognize, and I hope this goes 
to some of Dr. Coburn's questions, I recognize that sometimes 
the bureaucracy can be totally wrong.
    I recall in particular receiving--it was a personnel action 
that was very old and everybody up the chain said, coordinate, 
coordinate, coordinate, coordinate, coordinate, and I took a 
look at it myself, read the file very carefully, and concluded, 
Well, I just do not think this is right.
    And I remember bringing together, around my conference 
table, everybody who had coordinated, let us do it, on this 
particular action and challenged a lot of the assumptions that 
had been gone into this issue literally for years. And after 
the meeting, everybody who had coordinated on it before said, 
Gee, maybe we ought to take a second look at this. And whether 
it was that kind of thing or some of our counterterrorism 
operations, every once in a while I felt like it was 11 to 1 
and I was the one, and said to myself, this is why the 
President put you here.
    So I recognize that even with the large staffs that we have 
around us, that we surround ourselves with, every once in a 
while you have to take an independent look at something and not 
be afraid to realize that maybe the bureaucracy has this wrong 
and you happen to be right. I did that on a number of occasions 
at the Pentagon.
    Chairman Carper. As I prepare to yield to Dr. Coburn, I am 
reminded--we have all heard many definitions of leadership. One 
of my favorite--what you just said reminds me of it and it goes 
something like this: Leadership is the courage to stay out of 
step when everyone else is marching to the wrong tune. 
Leadership also requires some folks to lead and to help you 
lead the Department.
    My colleagues and I know, as you said earlier, this 
position has been vacant for months. The deputy position, 
Deputy Secretary, has been vacant for, I think, over half a 
year. And there are a number of other positions that need to be 
filled. The Administration has an obligation to nominate good 
people, to vet them, and we have an obligation to act on them.
    I hope that we will move promptly to confirm you and then I 
hope we will move promptly to making sure you have the team 
around you that you need. Dr. Coburn.
    Senator Coburn. Well, thank you, and again, welcome and 
thank you for your willingness to serve in this position. This 
Committee and my office have struggled to receive timely 
responses from the Department of Homeland Security to our 
inquiries and to reports that the Department is mandated under 
law to provide to us.
    For example, Congress passed a law in March requiring DHS 
to turn over certain reports to our Committee. They are just 
now complying with that, but only after I threatened to hold 
every nomination. So here is a law written on the books and 
yet, no compliance until we have to use a bigger stick.
    What I am wanting to know is, will you publicly commit 
today to give us your word that under your leadership, you will 
require the Department to respond to congressional inquiries in 
a timely fashion?
    Mr. Johnson. Yes, sir.
    Senator Coburn. And specifically, let me just detail a 
couple of them that I am asking for because I do not want there 
to be any surprises. We have requested mission logs for CBP's 
use of drones within the United States. Are you willing to 
provide those to the Committee?
    Mr. Johnson. I am generally sympathetic to that kind of 
request and I will take a careful look at it. I would be 
inclined to respond to your request, Senator.
    Senator Coburn. We have requested data on the Department's 
use of grants to fund State and local law enforcement purchases 
of cell phone intercept devices, license plate readers, and 
more. Are you willing to provide that to the Committee?
    Mr. Johnson. I will, if confirmed, promptly take a look at 
it and be inclined to get you what you request, yes, sir.
    Senator Coburn. We have requested internal reviews and 
other information about the United States Citizenship and 
Immigration Service (USCIS) Investor Visa Program, which 
appears to raise alarms along criminal and national security 
weaknesses in the program. Are you willing to provide those 
documents to us?
    Mr. Johnson. Same answer. Yes, sir.
    Senator Coburn. We have requested contracts, incident logs, 
project plans, and other documents showing how DHS conducts its 
cybersecurity programs. Are you willing to provide those to the 
Committee?
    Mr. Johnson. Same answer. Yes, sir.
    Senator Coburn. We have asked the Department, for a sector 
by sector border security plan. As a matter of fact, the former 
Secretary promised to get me that within 2 days of a breakfast 
meeting Senator Carper and I had with her. We are still waiting 
on that. Our inquiries have been met with stiff resistance. Are 
you willing to provide those to the Committee?
    Mr. Johnson. If confirmed, I will take a prompt look at 
that request. I would be inclined to give you what you need.
    Senator Coburn. We are still waiting for responses to 
questions from the record from several hearings that we held 
several months ago. Are you willing to insist that members in 
your organization respond to the questions for the record?
    Mr. Johnson. Yes, emphatically.
    Senator Coburn. Thank you. In your prehearing questions, I 
asked you if you had used or read DHS's intelligence products 
and whether you thought they were valuable. You mentioned that 
you did not recall specifics about any of the DHS intelligence 
products that you may have read.
    You also wrote, if confirmed as Secretary, you intend to 
personally assess the Office of Intelligence and Analysis (OIA) 
products and that you would provide your feedback. Many of us 
on this Committee have questions about DHS's intelligence 
initiatives.
    Will you commit today to provide your assessment of DHS's 
intelligence products as well as DHS intelligence programs, 
including the fusion centers, within 6 months of taking the 
helm of the Department?
    Mr. Johnson. Yes, sir.
    Senator Coburn. On border security and comprehensive 
immigration reform, you said that one of your priorities, if 
confirmed, is prepare for DHS's possible new responsibilities 
if that reform becomes law. However, many of us and many of the 
American people have questions about whether DHS is effectively 
managing its current responsibilities and currently upholding 
our Nation's immigration laws. Will you commit to reviewing the 
status of DHS's border security and immigration enforcement 
programs?
    Mr. Johnson. Yes.
    Senator Coburn. And specifically, all of the programs and 
report to us within a reasonable time--I know you are going to 
be loaded, so 90 days to 6 months. Would you give us your word 
that you will give us your assessment on that?
    Mr. Johnson. Yes, sir.
    Senator Coburn. Thank you. The other thing that I am 
impressed with you is your background in the field of law, 
specifically national security and counterterrorism from your 
time at the Pentagon. I know you have been getting up to speed 
on Homeland Security issues and the Department's program. As 
you prepared for this hearing, did you identify any programs 
that you think were unnecessary within the Department?
    Mr. Johnson. I have some questions about our Intelligence 
and Analysis component, and I would want to be sure that we are 
not----
    Senator Coburn. I am not going to ask you for a commitment 
on specific programs today, but the fact that you are looking 
at them and will take the input. I think it is important to 
have you do an analysis of that from where you stand with your 
experience and then get back to us within 6 months on what your 
thoughts are.
    Mr. Johnson. Happy to do that.
    Senator Coburn. That will help us. I have a whole lot of 
other questions. I think I will ask this question in a question 
for the record rather than spend time, and it has to do with 
the EB-5 Visa Program. I am very worried about that program, 
both from a national security standpoint and from an 
effectiveness standpoint. So I will ask that question to you 
for the record. I have about a minute and 20 seconds left.
    DHS has been given the significant responsibilities for 
cybersecurity, including working with critical infrastructure 
owners and operators and helping Federal agencies secure their 
networks. But the latest DHS Inspector General (IG) reports 
have raised questions about whether DHS has been effectively 
managing its own cybersecurity programs.
    For example, last week, a DHS Inspector General report 
identified several problems at DHS's Cybersecurity Center, 
including weak or nonexistent information sharing and lack of 
specialized training, poor communication and performance during 
a cyber-emergency simulation.
    And the DHS Inspector's most recent audit of DHS's 
compliance with Federal Information Management Security Act 
(FISMA), standards found many problems, including that DHS 
components and headquarters office of DHS were not adhering to 
DHS's own guidelines on FISMA, including the installment of 
patches in a timely fashion or fixing known security threats.
    So it raises the question, if Homeland Security cannot 
apply the very rules to itself it is asking other agencies to 
comply with, what authority can they have in executing 
cybersecurity at other agencies if they do not even follow 
their own rules for their own agency? So that is a big issue 
and it is one of competency and confidence. What I want to do, 
under your leadership, is to see that competency and that 
confidence restored.
    You have some great people under you in that area, and what 
we have to do is we have to make sure Homeland Security is 
doing it well before we ask everybody else to do it well. Will 
you commit to working with us to make DHS an example of good 
cybersecurity before seeking new authority?
    Mr. Johnson. Yes.
    Senator Coburn. I am over time and I guess we will have a 
second round, so I will pause with that and come back. Thank 
you.
    Chairman Carper. Before I yield to Senator Tester, 
obviously you have just committed to doing a whole lot of 
stuff.
    Mr. Johnson. I know. Somebody is taking notes.
    Chairman Carper. And this guy will make sure you do it.
    Mr. Johnson. Right.
    Chairman Carper. And you need some help to actually deliver 
on what you have committed to doing, and we have to help you 
get that team around you. So I would just again remind my 
colleagues that there are a lot of vacancies in this 
Department. Deputy Secretary is one of them.
    I just want to say, Dr. Coburn mentioned the EB-5 program, 
which most people have never heard of, but it is a way to 
enlist foreign investment for projects in this country that 
hopefully create a bunch of jobs. I think the program was 
reauthorized about a year ago, I think the leads on it were 
Senator Leahy and Senator Grassley.
    They did not include some of the program integrity 
recommendations from your Department that Mr. Mayorkas, I 
think, had championed. That did not end up in the 
reauthorization language. That did get into the Immigration 
Reform Bill, which has passed the Senate and is pending in the 
House. But we will have more conversation, I am sure, about 
that program, but I just wanted to mention that.
    Mr. Tester, you are on. Thanks very much.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Thank you, Mr. Chairman. I want to thank 
Ranking Member Coburn, also, and, Jeh, thank you for being here 
and thank you for being willing to serve again.
    You are taking over an agency that is barely 10 years old, 
22 different agencies. Dovetailing on the question that Senator 
Coburn talked about, my guess is, when it was established, it 
was established for two reasons, to increase effectiveness and 
to get the biggest bang for the buck.
    I think it is critically important that you go back, set 
turf aside, and make sure that the agencies and the departments 
that are there minimize overlap so that there is a bigger level 
of accountability. I am confident you will do that. So I thank 
you for your willingness to take a look at that.
    Also, I will say that I think it is important that we do 
find a balance between securing the borders, defending the 
homeland, and civil liberties of law-abiding Americans. That 
will be something that will be front burner, hopefully, for a 
long time to come.
    What I want to talk about with you now is morale. You have 
talked about repeatedly reforming DHS management would be your 
No. 1 priority. I think that should be a top priority. In 
recognizing that there is a high rate of attrition right now in 
DHS, what ideas do you have to help cultivate future leadership 
at all levels of the agency?
    Mr. Johnson. In my experience, if people are excited about 
the mission, people believe in the mission, the importance of 
the mission, they are willing to make a change, possibly leave 
the private sector, possibly leave more lucrative positions in 
the private sector to come serve the country.
    And I was fortunate when I was at the Pentagon to have some 
really capable people working around me who were Rhodes 
Scholars and Ph.D.s that I was able to recruit that helped with 
the overall effort, and I would hope to be able to do that at 
DHS.
    When it comes to morale, in my experience, you remind 
people of the importance of the mission, you remind people that 
they are serving the Nation. These are things that I think 
touch a lot of people at their core. I also recognize from 
experience that morale is driven in large part by just basic 
economic issues.
    When somebody has not had a pay raise in a long time and 
they are threatened with sequestration or government shutdown, 
that it takes its toll. So I expect to address morale, but 
there are limits to what you can do without giving people some 
basic relief.
    Senator Tester. This is an understatement. This is a huge 
agency and one thing that I think impacts morale is people 
thinking what they are doing is really worthwhile, that they 
are actually being effective in their job. Any ideas in that 
particular realm, how you can give folks a sense of 
responsibility so that they know what they are doing really 
does make a difference?
    Mr. Johnson. In my experience, complimenting people for a 
job well done, cannot say thank you too many times when 
somebody deserves it, making them feel good about their work 
goes a long way.
    Senator Tester. Senator McCain and I recently introduced a 
bill to reform the pay structure for Customs and Border Patrol 
agents, make the borders more secure while allowing more 
consistent hours overtime potentially could save a billion over 
10 years. The Border Patrol currently uses an antiquated pay 
system that is over 40 years old. I do not know if you have had 
a chance to take a look at this legislation. Have you?
    Mr. Johnson. I have not yet, no, sir.
    Senator Tester. Well, I would just say this, and you have 
enough commitments with Senator Coburn, but I would hope that 
you get a chance to take a look at the legislation and work 
with Senator McCain and myself to make sure that this pay 
reform happens, because I think there is a lot of money that is 
being wasted at this point in time. You do not have to make a 
verbal commitment on that. I think it is common sense.
    DHS, like DOD, makes huge investments in enterprisewide 
technologies, billions of dollars in just one system. You have 
mentioned that the use of technology in managing our borders, 
whether it is with low-level radar, fiber-optic cables, the 
list goes on.
    How will you work with CBP, DHS, science and technology, 
and the private sector to ensure that we are utilizing 
technology at the Northern and Southern Borders? Me, living on 
the Northern Border with little emphasis on northern, to aid 
where human resources either are not effective or not cost-
effective?
    Mr. Johnson. First of all, I have learned a lot about the 
Northern Border in the last couple of weeks. Thank you. And as 
we move to more advanced technology, I think we also need to be 
sensitive to privacy, civil liberties concerns that people who 
live along these borders may have. I think that is important.
    And as the border security professionals talk to me about 
risk-based strategies, I want to be sure we do not have any 
blind spots, that we are constantly vigilant in identifying 
where the high risks are and where we need to focus our 
technology.
    Senator Tester. I want to talk about the private sector and 
I want to talk about contracting in the private sector for 
those kind of technologies. Something that has been very 
frustrating for me--and if you have a different opinion on 
this, please let me know--is that oftentimes when it comes to 
contracting, we assume the big companies have all the good 
ideas and the little guys are cut out of the system. A lot of 
the little guys have some incredibly good ideas, especially as 
it applies to regional problems.
    What are your thoughts about improving competition and 
opportunities for the little guy, the smaller people within the 
Department, or is that a priority for you?
    Mr. Johnson. In my experience, competition generally leads 
to a better result for the taxpayer and for the agency. In my 
personal experience, sometimes the big guy on the block can 
also be the most complacent guy on the block. It is sometimes 
good to find somebody who is kind of up and coming, a little 
hungrier and a little more innovative. So bigger is not 
necessarily better.
    Senator Tester. So the question is, and I do not want to 
categorize, but I will. In the past, the big guys have pretty 
much gotten the contracts. The little guys have not. How do you 
fix that, if you think that is a problem, which you have 
indicated you do?
    Mr. Johnson. Encourage competition. Encourage people to put 
forward their request for proposals (RFPs). In my experience, 
when there is a competition, it will depend upon how you write 
your specifications, how you write your requirements.
    Senator Tester. Correct.
    Mr. Johnson. There are ways to write requirements such that 
only one company in America can put forward an RFP.
    I am not an acquisition expert. I do not live in that 
world. There are people who are. But I do know that a lot of 
times it depends on how you write the specifications for the 
job.
    Senator Tester. And that is a very good point, and I will 
tell you, you might not be an acquisitions expert, but you are 
probably going to be heading this Department up and your 
philosophies should be able to filter down through all the 
different sectors of the agency. Thank you very much for being 
here.
    Senator Coburn. [Presiding]. Senator McCain.

              OPENING STATEMENT OF SENATOR McCAIN

    Senator McCain. Thank you. Mr. Johnson, I have known you 
for a number of years and I am very pleased that you will be 
taking on these new responsibilities, and I view you as an 
outstanding public servant, and I am confident that your 
nomination process and confirmation will be very smooth.
    I want to talk about the border with you. Your predecessor 
stated frequently, the border is more secure than ever, citing 
the reduction and apprehensions as a proof of that progress 
being made, and she said it for a number of years. Do you agree 
with that statement?
    Mr. Johnson. Senator, I have seen the same numbers. I noted 
that the numbers are going down. There might be a recent trend 
upward, but one of the things, if I am confirmed, I want to 
look at is exactly how we should define border security and 
whether those numbers are an accurate reflection of border 
security.
    Senator McCain. Well, in reality, over the last 2 years, 
there has been a 20 percent increase in apprehensions along the 
border. Now, when your predecessor made those statements, I 
used to just get--I cannot tell you the frustration that I felt 
because I knew, and those of us who are familiar with the 
border, that the real reason why those apprehensions went down 
was because of the economy. And now that the economy is getting 
stronger, apprehensions are up. So if they are up 20 percent, 
that means that the border is less secure.
    Now, as we work--the eight of us--to complete this 
comprehensive immigration reform, which is stalled, as you 
know, in the House, and one of the major reasons why it is 
stalled is because of the lack of confidence in border security 
of not only Members here, but of Members of the House of 
Representatives. So now, for years, the Secretary of Homeland 
Security said, Well, apprehensions are up so that the border is 
more secure because there was a reduction in apprehensions. Now 
the apprehensions are up.
    And so, here we are faced with a situation where the border 
is still not secure. When we were trying to develop this 
legislation, we went time after time to the Department of 
Homeland Security to get what was needed to get the borders 
secure, what measures were needed to be taken. We never got 
that from the Department of Homeland Security, never.
    We had to go directly to the Border Patrol and got some 
very good information which we included in the legislation, 
specific sector by sector the technology that was needed. Can 
you tell this Committee that you will not repeat what happened 
to us and the frustration that we experienced?
    And I want to know what, from you, what is required for us 
to have 90 percent effective control of the border. Can you 
assure this Committee of that?
    Mr. Johnson. Senator, I will commit to you to working with 
you----
    Senator McCain. No, I am not asking you to work with me. I 
want to know if you will give this Committee the exact metrics 
that are needed, sector by sector, so that we can obtain 90 
percent effectiveness on the border. Not working with me. 
Answer yes or no, please.
    Mr. Johnson. I am inclined to give you what you need.
    Senator McCain. I am not asking for your inclination. I am 
asking for a yes or no answer. I do not think that is a lot to 
ask. We have our responsibilities here, and one of them is to 
have a secure border. Unless we get the right information from 
you and your bureaucracy, we are not able to ascertain how we 
can secure our border.
    So as much as I admire and appreciate you, unless you can 
tell me that you will give the information which this Committee 
has the right to have, I cannot support your nomination.
    Mr. Johnson. I am really inclined----
    Senator McCain. I am not asking for----
    Mr. Johnson [continuing]. To give you what you need, sir.
    Senator McCain. So let the record show you will not give a 
yes or no answer. Therefore, I will not support your nomination 
until I get a yes answer. This Committee and Members of 
Congress, particularly those of us who are on the border, have 
the right to have that information. It is our responsibility 
and our obligation to our constituents.
    I have constituents in my State who every night there are 
people who are crossing their border illegally. I have 
constituents that every day, drug smugglers are going across 
their property and their homes. So they certainly have the 
right, as citizens, to know what measures need to be taken in 
order to have a 90 percent effective control of the border.
    I ask you one more time. Will you or will you not give that 
information to this Committee?
    Mr. Johnson. I have been through this process enough to 
know that a Senator asks a question like that and somebody 
afterward is going to tell me six reasons why I should not do 
it, and in those instances, I have said, Senator, and I think 
you know this from me, Well, the Senator really needs it, we 
are trying to get to the same place, let us give it to him.
    So before I commit unequivocally to your question, and part 
of me very much wants to do that, I think I need to talk to 
people at DHS to better understand the issue. I have read the 
letter you wrote in February and I am strongly inclined to give 
you what you need, Senator, and I think you know that from me 
from my track record at Armed Services.
    Senator McCain. Well, sir, again, I have an obligation to 
the citizens that I represent. Right now, in their view, our 
border is not secure. Without your cooperation as to informing 
the Congress as to what measures need to be taken in order to 
assure 90 percent effectiveness, then I cannot serve my 
constituents and I hope you understand that.
    Mr. Johnson. Senator, you will have my cooperation, I 
promise that.
    Senator McCain. I am not asking for cooperation. I am 
asking for information.
    Chairman Carper. [Presiding]. Senator McCain, do you yield 
back your time? OK. Let me just make a suggestion. Months ago, 
earlier this year, Senator McCain was good enough to host me in 
his State, and we spent a lot of time meeting with his 
constituents, traveling along the border, talking with the 
folks from the Department of Homeland Security, the Border 
Patrol.
    I would urge you, early in your tenure, if confirmed, see 
if you cannot head down there and spend some time, especially 
in Arizona and in the eastern part of Texas. I thought it was 
illuminating for me, very helpful, and I think it would be for 
you as well.
    Senator McCain. Could I thank the Chairman for traveling 
down there? I thank Dr. Coburn who also has traveled and spent 
extensive time down there. And both of you understand very well 
the frustration that my constituents feel when they live in an 
environment where nightly people are crossing their property, 
where ranchers have been killed. This is not an academic 
exercise.
    And it seems to me that an obligation to the Congress of 
the United States would be to provide us with information that 
we could not get when we were putting the comprehensive 
immigration reform together and we had to go direct to the 
Border Patrol to get the required information.
    Now, I was told that was because the White House had said 
that the Department of Homeland Security should not provide us 
with that information. But how can we carry out our functions 
of oversight if we do not get the kind of information we need 
to make the decisions that this Committee is responsible to 
make?
    Senator Coburn. I would just say that it would relate to 
the fact that when we were promised information and did not get 
it by the former Secretary.
    Chairman Carper. OK. Thanks, Mr. McCain. Senator Levin.
    Senator Levin. Thank you.
    Chairman Carper. Senator Levin and then Senator Begich.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you very much, Mr. Chairman. First, 
let me thank you, Mr. Johnson, for your answer to the call to 
public service again, and for the answer being yes, and to your 
family. We thank them for the support which is so essential to 
all of you who have taken these jobs with such responsibility.
    You and I have talked in my office about a number of 
things, and one of them I want to get into some detail on this 
morning has to do with the fact that we have about two million 
corporations that are created every year in the United States 
by our 50 States. That is more than the rest of the world 
combined.
    The States approve these incorporations without ever asking 
who the real owners of the corporations are, who are the 
beneficial owners of these corporations. Some of these 
corporations get involved with Medicare fraud, tax evasion, 
terrorism, smuggling, drug trafficking, and other wrongdoing.
    Now, just a few months ago, in June, at the Group of 20 
(G20) summit, 20 leaders, including President Obama, reached 
the consensus that it was time to stop creating corporations 
with hidden owners. All 20 leaders, including President Obama, 
committed to changing the way they do things in this regard.
    And in response to that international commitment, President 
Obama, in June, issued what is called, quote, a national action 
plan, which, among other measures, calls for enactment of 
Federal legislation to require our States to include on their 
incorporation forms the one question asking for the names of 
the real owners of the corporation being formed.
    Now, that is very different from the owners of record, 
which are too often simply shell corporations themselves, in 
secrecy jurisdictions. But this is a need for the beneficial 
owners who actually control and benefit from the corporation. 
Senator Grassley and I have introduced a bill which would do 
that, and we have been fighting for enactment of this bill for 
years.
    President Obama was an original co-sponsor when he was in 
the Senate. Law enforcement is the biggest supporter. Groups 
that have endorsed this bill include the Federal Law 
Enforcement Officers Association, National Association of 
Assistant U.S. Attorneys, Society of Former Special Agents of 
the FBI, and so forth.
    Federal Law Enforcement Officers Association, which 
represent 26,000 Federal law enforcement officers, explained 
their support for the bill this way, quote, suspected 
terrorists, drug trafficking organizations, and other criminal 
enterprises continue to exploit the anonymity afforded to them 
through the current corporate filing process. Hiding behind a 
registered agent, these criminals are able to incorporate 
without disclosing who the beneficial owners are for their 
companies, and this enables them to establish corporate flow-
through entities, otherwise known as shell companies, to 
facilitate money laundering and narco-terrorist financing.
    So our bill, the Levin-Grassley bill, is endorsed by huge 
numbers of law enforcement, public interest groups, good 
government groups, and I will put the list in the record if 
that is agreeable with our Chairman.
    Now, Mr. Johnson, right now in the United States it takes 
more information to get a driver's license or to open a U.S. 
bank account than to form a U.S. corporation. And what I am 
asking you is, whether or not, in light of the President's 
national action plan calling for legislation that would require 
States to request beneficial ownership information and the 
impact on our homeland security, that the negative impact that 
exists when we do not have that information and law enforcement 
does not have it, will you support the Levin-Grassley 
Incorporation Bill, Senate Bill 1465?
    Chairman Carper. If I could just interject, I love Carl 
Levin. But the legislation that he has been championing is 
opposed by most of the States, and I would just urge you to be 
careful in your response.
    Senator Levin. I would urge you to be careful in your 
response as well. [Laughter.]
    The President of the United States wants beneficial 
ownerships listed. The only opposition we have is from a whole 
bunch of secretaries of State. At any rate, we will not debate 
that here. I have asked you to become familiar with this issue 
and I want to know whether or not you have become familiar with 
it and whether or not you will support it.
    Mr. Johnson. Senator, after my visit with you a couple 
weeks ago, I began to look at this legislation. I am impressed 
by the number of law enforcement organizations and public 
interest organizations that support it. I am sympathetic with 
the law enforcement/homeland security interests. I would want 
to understand, if the States and the business community have 
objections to it, what those objections are.
    Senator Levin. Not the business communities, a number of 
Secretaries of the State and I think their association.
    Mr. Johnson. I would be interested to hear their views. I 
would be interested to hear the business communities' views.
    Senator Levin. Will you get back to us after you have done 
that?
    Mr. Johnson. Yes, sir.
    Senator Levin. Promptly?
    Mr. Johnson. Yes.
    Senator Levin. Thank you. The report of the GAO called 
border security, enhanced DHS oversight, and assessment of 
interagency coordination is needed for the Northern Border. It 
said that DHS reports that the terrorist threat on the Northern 
Border is higher than it is on the Southern Border given the 
large expanse of area with limited law enforcement coverage.
    I am glad you have become familiar with the Northern 
Border, as you suggested a few minutes ago, and we obviously 
are very much concerned with the problems on the Southern 
Border, which Senator McCain has mentioned. But my question, as 
a Northern Border State is, will you keep the needs of all of 
our borders in mind after you are confirmed?
    Mr. Johnson. Yes, sir, absolutely.
    Senator Levin. I have a statement about helicopters and the 
need of helicopters in a number of our Coast Guard Air 
Stations. I will have that for the record. My time is up, so I 
will ask you that for the record. There has been a commitment 
to an upgrade of helicopters in Traverse City, one of our Coast 
Guard stations, that has not yet been kept. So we will try to 
get you to put some--place some attention on that long-standing 
commitment.
    Hopefully you will be confirmed soon and that will occur 
after that confirmation. Thank you.
    Senator Coburn. We need those Coast Guard helicopters.
    Senator Levin. Yes. You have already got yours, I 
understand.
    Senator Coburn. Landlocked.
    Senator Levin. Yes.
    Chairman Carper. Before I turn to Senator Begich and 
Senator Ayotte, I will just go back on a quick P.S. on the 
issues that Senator Levin has raised. Dr. Coburn was the 
ranking Republican on the Permanent Subcommittee on 
Investigations with Carl Levin for a number of years, and I 
have had the pleasure of serving with him for over a dozen 
years. He is tenacious. He is a dog with a bone.
    And on the issue that he has raised, there is real validity 
to the concerns that he has raised. What we have tried to do is 
to encourage the States, particularly the Secretaries of the 
State, to work with law enforcement to see what can be worked 
out in a way that the States can administer it or are agreeable 
to doing that.
    They have been having some meetings. I am told that they 
are actually good exchanges. And we are going to continue to 
nurture that and hopefully facilitate something so that we can 
get it done. I can sit next to this man, whom I love, and arm 
in arm resolve this issue with him. And then we can turn our 
attention to spring training, our beloved Detroit Tigers 
returned to Lakeland, Florida, and we are again friends.
    Having said that, let me turn to Senator Begich for any 
questions.

              OPENING STATEMENT OF SENATOR BEGICH

    Senator Begich. Thank you very----
    Senator Coburn. What is your ball team's name?
    Senator Begich. We have many. We believe in all of 
America's teams because we do not have one. But I will say 
that, just as they mentioned, I will get into my Arctic issue 
in a second, but they may need helicopters, I need helicopters, 
ships, and a few other things in Alaska for the Arctic. So we 
will get to that in a second.
    Let me, if I can, we have a very specific issue I want to 
put on your radar screen. It is with the CBP and it is 
regarding a request that was made by a tourism company, a 
pretty large, significant company to move folks from Fairbanks, 
Alaska to Dawson City, which is in Canada. It obviously 
requires Customs and Border Patrol approval. They denied it. In 
their answer, the reason they denied it, was inefficient use of 
our existing resources.
    Here is what is troubling about this. First off, it could 
bring about 19,000 visitors to Alaska. The fees alone that the 
Customs and Border Patrol would get would be about $144,000. 
The cost to do the service is about $120,000. In other words, 
they would make money on this opportunity, excluding all the 
other revenue streams that might come to the Federal Government 
through other types of expenditures, those almost 20,000 
visitors.
    So they denied it based on inefficient use of their 
resources. Well, first off, they do not have the resources. 
That is why if this was in place they would have $140-plus 
thousand dollars to actually purchase those resources, and 
Homeland Security would make--I will carefully use this word--
about a 20 percent profit on it.
    So it seems if this was a business, it would make a lot of 
sense. So their idea was, ``Well, why do they not just re-
jigger the flights, do them from Anchorage to Dawson,'' which 
makes no sense because part of the trip is to go to Denali 
Park. It would add 400-plus air miles and cost to the traveler.
    I know it is a big issue, and I know they pay a lot of 
attention to the Southern Border, but actually, Alaska has a 
border, too, and we have actually good cooperation with 
Canadians in regards to our border. So I just do not think CBP 
understands the logistics of this and how large Alaska is.
    I know sometimes everyone puts Alaska in a little box off 
the coast of California, but they forget it is one-fifth of the 
size of this country. And so, I would hope that you could look 
into this. I think you would make a very good Secretary. And I 
think, because you come from a variety of fields, but also, 
from my conversation that we have had, and others, you are 
practical. You look at these issues.
    It just seems they have given what I would call a classic 
bureaucratic response, inefficient use of resources, despite 
the fact when you do the numbers, it actually makes them money 
and puts more people on the payroll to do a service that grows 
our economy in Alaska. So if you could look at that, we would 
be happy to share information with you at a certain point, but 
the office is clearly aware.
    We have written a letter last week and made it very clear 
this is good for our economy, good for Alaska, and good for 
Homeland Security, and it is a good relationship builder with 
our great ally of Canada. So I would hope that you would put 
that on your radar screen.
    I do not know if you have a quick comment on that. I know 
it is under appeal so you cannot say anything legally, but 
would you at least look into this if the opportunity arises?
    Mr. Johnson. Yes.
    Senator Begich. OK. Let me also go to the issue of the 
Coast Guard on the Commerce Committee. I chair the Subcommittee 
on Oceans, which has oversight on the Coast Guard, and as we 
move toward the Arctic and as more Arctic development occurs, 
with oil and gas, tourism, shipping, science, research, all 
that requires the Coast Guard to be a partner there in the 
sense of security and safety, not necessarily oil spill 
technology, but really the whole issue around safety on the 
water and what could happen.
    My worry is this, that we will just shift resources around, 
kind of move the chairs on the deck around the country with the 
Coast Guard, when in reality what we have to do is look at what 
is needed in the Arctic and the Bering Sea, which has now an 
enormous amount of traffic moving through there, international 
traffic.
    Can you give me your thoughts in how you would address this 
situation that we have within the Coast Guard of limited 
resources, but a huge, growing, new area of responsibility that 
will be significant for our country?
    Mr. Johnson. I think we need to be agile in terms of 
evolving needs with the resources we have. I know the Coast 
Guard is undertaking a recapitalization program which I have 
begun to learn about. I have talked to the Commandant about 
that. I have also talked to him about your part of the world, 
Senator. I think the Commandant himself agrees that this is an 
area of the world where the Coast Guard needs to be vigilant.
    I agree with you--and I agree with him--that this is a part 
of the world where we need to pay attention to and it is one I 
expect to do so if I am confirmed.
    Senator Begich. Very good. Let me move to another issue and 
that is, as you know, more and more domestic drone activity is 
being considered, both private and public sector, and I guess 
my question would be, how do you see the Homeland Security 
Department engaged in that in the sense of policy or otherwise?
    Mr. Johnson. As we move to a more risk-based strategy, 
which is what the professionals who deal with border security 
have told me about, technology is an important component of 
that. Surveillance technology is an important component of 
that. As we rely more and more on it, I think we also need to 
be very concerned about the privacy and civil liberty issues 
associated with that.
    DHS has an office, two offices dedicated to this. I think 
we need to further develop and refine our policies as the 
technology moves further along.
    Senator Begich. Very good. And as you move forward, 
assuming your appointment, you will share that and continue to 
work with the Committee in regards to that policy?
    Mr. Johnson. Yes, sir.
    Senator Begich. One last question. This is a very specific 
one. I just had a hearing here. I chair the Subcommittee on 
Emergency Management in this Committee in regards to Hurricane 
Sandy and the devastation that occurred, we just passed the 1-
year anniversary, and one of the issues that came up is some 
complaints I have received regarding houses of worship that are 
unable to access certain grants, even though non-profits can 
access them. Let me give you an example.
    Let us say you are a house of worship, but you ran a day 
care center or you leased it out to someone who ran a day care 
center. The day care center was wiped off the face of the 
earth. They get no capacity to go after grants, but yet, a day 
care center down the street that may be run by an independent 
non-profit that has a different lease with a private sector 
landlord can get those grants.
    There seems to be an imbalance there. Recognizing that the 
house of worship, it is not about the house of worship, it is 
about the facility that was being used. I know as a former 
mayor, we worked with a lot of these Camp Fire, for example, 
was doing after-school programs within some of these facilities 
because that was the only place and location we could do it.
    What I am asking you is, would you be willing to look into 
this issue, assuming that you receive confirmation? I think it 
is important to provide the services needed and not put people 
at risk because where they put the facility or the service they 
are providing to the community. Does that make sense, that 
question?
    Mr. Johnson. I would be happy to look into it, yes, sir.
    Senator Begich. Fantastic. Thank you. I will end there, and 
thank you, Mr. Chairman.
    Chairman Carper. I am not sure if the issues that Senator 
Begich is raising is one--I think the legislation has actually 
been introduced in the House----
    Senator Begich. That is correct.
    Chairman Carper [continuing]. That would allow houses of 
worship to receive directly, I believe, Federal grants for 
damage done to those houses of worship. We had the 
constitutional scholars look at that legislation carefully and 
there are questions that are raised, as you might imagine, 
about the separation of church and state.
    So while we want to be supportive of whether it is a day 
school or a soup kitchen or something that is faith-related and 
has been damaged, we want to be supportive in that regard. I 
think we have to be mindful of separation concerns that are 
raised by that legislation.
    Senator Begich. And I will just add, if I can, Mr. 
Chairman, I do not disagree with that, but I will tell you as a 
mayor, there are many times in communities where the facility 
is only available in a house of worship, run by, for example, 
Camp Fire. So I understand.
    I am not a lawyer, never want to be one, to be frank with 
you, no disrespect to lawyers. We have plenty in this body. I 
am more interested in trying to figure out solutions to a 
problem. But I just want you to look at it and give me your 
response.
    Mr. Johnson. Yes, sir. I am trying to get out of the legal 
business, too.
    Senator Begich. I know, and I like that you are going into 
public service. Thank you.
    Chairman Carper. Sometimes Senator Begich and I refer to 
ourselves, he as a recovering mayor and me as a recovering 
Governor. You can become a recovering lawyer. That will be 
good. All right. Speaking of recovering attorneys general.
    Senator Ayotte. I was going to say, exactly, Mr. Chairman. 
I am a recovering attorney general.
    So thank you, Mr. Johnson, for being here, and I want to 
obviously thank you for your willingness to step forward to 
serve the country again, and your family.
    So we have made some significant progress in taking out 
members of core al-Qaeda. Yet, we certainly have now factions 
and affiliates that are growing over a very large geographic 
region. I mean, when you look at al-Qaeda in the Islamic 
Maghreb (AQIM), al-Qaeda in the Arabian Peninsula (AQAP), al-
Qaeda in Iraq to al-Nusra and al-Shabaab.
    So what kind of threat do you believe that these groups 
pose to the homeland? Is the threat growing? Where do we stand 
with that, and which al-Qaeda affiliate do you believe is the 
biggest threat? And then as a subsequent question I have for 
you as well, how big a threat do we face from home-grown 
violent extremists to our nation?
    Mr. Johnson. Senator, I have to preface my answer by saying 
that I have been away from the intelligence for almost a year 
now, and I know from my experience that threat streams can 
evolve week to week.
    Senator Ayotte. I understand the caveat, but I know you 
also had substantial involvement----
    Mr. Johnson. Yes.
    Senator Ayotte [continuing]. With this issue.
    Mr. Johnson. I would characterize it this way: I agree with 
you that we have had considerable success in taking out core 
al-Qaeda. I think during my time at the Department of Defense, 
we saw the rise of affiliates like AQAP, AQIM, the AQ-
affiliated elements of al-Shabaab. We have had some success 
with respect to those affiliates.
    And I believe that the way I would characterize it, we are 
moving to a third phase where the terrorist threat is becoming 
even more diffuse and we are seeing more lone wolf activity, 
more self-radicalization. Somebody reads a publication and they 
are not affiliated with AQ in the traditional manner of 
accepting formal command, direction, or training at the camps, 
but they are committing equally dangerous acts of terrorism.
    Those types of threats are, in my view, harder to detect. 
And so, I think that this ties in with the Homeland Security 
mission. I think that as we see more of a rise of that kind of 
threat, we are going to have to be vigilant on the civilian 
side, in law enforcement, border security, and so forth.
    Senator Ayotte. And how do you envision--I mean, one of the 
issues, obviously, communication is key.
    Mr. Johnson. Yes.
    Senator Ayotte. So from your prior experience at DOD, what 
would be your biggest priority when we look at preventing that 
threat to our country, which, by the way, you would agree with 
me is still a very real threat?
    Mr. Johnson. Yes. I think working with, communicating with 
State and local law enforcement, first responders, is key. It 
is going to be even more significant, I think, in the years 
ahead. I believe DHS is situated in that regard with vertical 
sharing of information, intelligence, and analysis, and the 
first responders are going to have to be in a position to deal 
with these kinds of situations.
    Senator Ayotte. One of the issues that you and I have 
talked about at length from your prior position and now that 
you are going to be in a very important position as the head of 
Homeland Security is this issue of interrogation.
    How important is it that when we do capture a terrorist? 
For example, Ayman al-Zawahiri, if we get him tomorrow, how 
important is it that we are able to conduct a vigorous and 
sometimes lengthy interrogation of these individuals in terms 
of intercepting attacks and information about their networks?
    Mr. Johnson. In my experience, interrogation of a terror 
suspect, somebody who is part of one of these groups, has been 
a gold mine for us in terms of what we learn through national 
security interrogations. That has been my experience in the 
first 4 years of this Administration.
    Senator Ayotte. So one of the challenges we face that is 
not directly under your purview now, but I think that given the 
important role you face, that you will certainly, I would 
imagine, be sought after for advice on this is, how do we deal 
with this issue in a civilian context of the challenge of, if 
we capture al-Zawahiri and if you bring him in, right into our 
civilian court system, then we have things like Miranda Rights, 
speedy presentment, which can interfere with the length of 
interrogation that you might need to find out what someone 
knows to make sure that we are getting everything we need to 
protect our country.
    I feel like we are sort of in limbo-land right now where 
you and I talked about it in our meeting. Let me hear what you 
think about this issue and what are the challenges we face and 
how can we have a policy that allows us to gather information, 
while, obviously, I understand, we need to preserve future 
prosecution? But I am deeply concerned that we have a huge gap 
right now.
    Mr. Johnson. As you and I have discussed, I believe there 
is currently legal authority for a national security 
intelligence interrogation pre-Miranda, pre-presentment when 
you have somebody who is in the category of a national security 
threat who is captured or arrested.
    I also think that the Executive and the Congress ought to 
look at codifying some of this into law to reflect the 
practice, because I think it is going to become an increasingly 
important practice and there will be an increasing need for 
this type of interrogation. I think the authority exists 
already, but it might be a good idea to try to codify it.
    Senator Ayotte. Well, thank you very much. I appreciate 
your insight on that, and I think right now we are in a place 
where we do not have really a detention and interrogation 
policy to address the situation where if tomorrow we capture 
the head of al-Qaeda, where is he detained and how long will he 
be held for interrogation? I look forward to working with you 
on this issue because it is one, I think, that is going to 
continue to present itself, as you have raised.
    I want to ask you as well, just in terms of issues that you 
will be asked to address, there are many issues of waste, 
fraud, and abuse that I know Dr. Coburn and certainly Chairman 
Carper have asked you about. I look forward to working with 
them. One that has been raised recently has to do with overtime 
issues, and that is employees abusing the administratively 
uncontrolled overtime pay system, and therefore, amassing 
millions in unearned pay. It is an issue I have been interested 
in. And how would you go about addressing that?
    Mr. Johnson. It is obviously an issue of concern. I have 
read about it and I have had it explained to me. I know the 
Acting Secretary has undertaken a review, and if I am 
confirmed, I would be very interested in the results of that. I 
worry that it could be a systemic problem, and it is obviously 
one that should trouble whoever the head of DHS is, should 
trouble Congress, and trouble the taxpayer.
    Senator Ayotte. Thank you very much.
    Chairman Carper. Thank you. Senator Ayotte, thanks for 
those questions. Senator Paul, nice to see you, welcome. You 
are recognized.

               OPENING STATEMENT OF SENATOR PAUL

    Senator Paul. Thank you, Mr. Johnson, for your testimony. I 
was wondering, do you think the Fourth Amendment applies to my 
Visa purchases?
    Mr. Johnson. I do not have a legal opinion on that, 
Senator. I think that there may be a privacy interest there, 
but I do not have a legal opinion for you right now.
    Senator Paul. I hope you will think about it and I think it 
is something we all need to think about. And I think the 
current Supreme Court law actually probably says no. I think it 
is a tragedy, but that is the way the law has gone. With my 
Visa bill, you can tell what books I read, what magazines I 
read. You can tell whether I go to a psychiatrist. You can tell 
what medicines I buy. You can tell virtually everything about 
my life because everything I buy I put on my Visa card.
    People say, I do not have any expectation of privacy 
because it is a third-party record. I gave it up to someone. I 
think this is a big issue for us and, frankly, the 
Administration has not been very supportive of the Fourth 
Amendment and we are going to press these issues. But I want 
you to know that we will be watching and those of us who 
believe in the Fourth Amendment will be continuing to watch.
    Do you think that a single warrant can apply to millions of 
records and millions of individuals?
    Mr. Johnson. I understand that may be an issue with regard 
to certain surveillance programs. I do not have a legal opinion 
on that for you, Senator.
    Senator Paul. Pretty important issue. It is going to be one 
of the biggest issues, and hopefully it will get into the 
Supreme Court.
    Do you think that it is due process to have a court trial 
where only one side is represented? Do you think that is due 
process where only one side would have a lawyer?
    Mr. Johnson. In the context of a litigation, or a courtroom 
proceeding, no.
    Senator Paul. We do have a court. That is where we are 
deciding now Constitutional questions, the Foreign Intelligence 
Surveillance Act (FISA) court. There is no advocate on the side 
of the Constitution. There is no adversarial proceeding, and I 
think there could be no justice. There is also reviewing of 
Constitutional questions done in secret. Do you think we should 
decide the scope of the Fourth Amendment in a secret court?
    Mr. Johnson. I think we in the Executive Branch and in the 
FISA court need to be skeptical. We need to have robust 
discussion. I have been a part of that in making certain use of 
force decisions. And I am skeptical of simply a lot of yeses in 
the room and I believe somebody needs to ask the hard 
questions.
    Senator Paul. And I do not doubt, and I am not questioning 
your integrity, but what I would say is that due process is not 
a bunch of people, good people in a room, discussing whether we 
should kill people with drones or something. The President has 
mistakenly said that is somehow due process. That has nothing 
to do with due process.
    It may be a good idea, but it is not due process. Due 
process is in a court and it is debate back and forth with both 
sides being represented and with, hopefully, an impartial 
justice or impartial justices deciding this in an open court. 
So there is a lot of things going on in our country which 
really do not meet due process.
    And frankly, whether you are a good or bad person or 
whether you are in a room discussing this or whether you give 
vigorous debate, is not due process. It is important that this 
be said over and over again because we are making important 
decisions, which gets to my next question.
    Do you think we should target American citizens overseas 
for killing who are not involved in combat? I am thinking of 
propagandists, other people who may have committed treason but 
have not been charged or convicted. Do you think that a bunch 
of lawyers in a room from one Administration, from one 
political party, can decide the guilt or innocence of American 
citizens? These are ones who often, if not always, are mostly 
not engaged in combat.
    Mr. Johnson. As you pose it, I think my answer would be no.
    Senator Paul. But you realize that a lot of the drones are 
directed against people just walking down the street or eating 
or doing something. I do not have any problem, if an American 
citizen is over there fighting and they are in the middle of a 
war and they are shooting at our soldiers, by all means use a 
drone or whatever other means you have to kill them. But we are 
killing people sort of walking down the street.
    So what I am arguing for, and nobody really seems to be 
making the point that I am, is that, for example, Adam Gadahn. 
We indicted him. He probably has committed treason. You 
probably would convince me if I were on the jury to convict him 
of treason. Why not? Why not go ahead and try these people for 
treason? Al-Awlaki, we had him listed for years and years.
    If you have to redact some testimony or go into private 
session, do it. Give him a chance if he wants to come home. My 
guess is he was not coming home to be tried for treason. But go 
ahead and try him for treason. And then I think you at least 
have due process, because then you have a real court, a real 
process.
    You would probably have a lawyer on both sides. I mean, the 
whole idea that justice comes about through representation and 
through a court trial and through a jury is something too 
important--and I know this is an unusual circumstance, we have 
only had like three or four citizens killed--but the principle 
of it is pretty important.
    And I think we should all be aware that there were times in 
our history when we did not do justice to a lot of people for 
various reasons, for race, the Japanese-Americans. Imagine what 
happened to them when they did not get processed during World 
War II.
    Also imagine what happened to--or what would have happened 
to an African-American in 1910 in the South accused of a crime. 
So I think there are all kinds of reasons that a lot of us 
should be a little more concerned about due process and not be 
so careless about this.
    So I just hope you will think about these questions, the 
scope of the Fourth Amendment, but also what due process is, 
and that if you are head of Homeland Security, you and a bunch 
of lawyers getting together and deciding it is fine to collect 
data on every American through one warrant, that is a 
Constitutional question and it is also not due process.
    And I hope that you will be somebody you will facilitate 
getting Constitutional questions into a real court and not a 
mock court. Thank you.
    Chairman Carper. Thank you, Senator Paul. Let me turn, if I 
can, I mentioned earlier in my comments on GAO, and Dr. Coburn 
and I have used GAO's high-risk list. Most of it is a to-do 
list for a subcommittee that we used to take turns leading, and 
also for this Committee as well. Every year GAO promulgates its 
high-risk list. People say to me, what is a high-risk list? It 
is high-risk ways of wasting money, our taxpayers' money, which 
is in short supply as you know.
    One of the things that Jane Holl Lute, who was the last 
confirmed Deputy Secretary, used to do, she used to go over to 
the GAO. I do not know if she went every week, but she went 
pretty often, and would meet with Gene Dodaro, the Comptroller 
General, meet with others who worked for him, and say, Let us 
go through your high-risk list and let us see what we have to 
do to get off of it. They made a whole lot of progress.
    And hopefully, later this year, the Department of Homeland 
Security will complete a clean audit and leave us only one 
large department, and that is the Department of Defense, that 
has not actually received a clean audit.
    But I want to urge you, and when we get a Deputy confirmed, 
hopefully soon, to take to heart what Jane Holl Lute used to 
do, and I am sure Janet Napolitano, as the Secretary, did it as 
well. With that having been said, let me just ask you what you 
believe to be some of the major management challenges in the 
Department. What do you see your role as the Secretary in 
addressing those management challenges?
    Mr. Johnson. Senator, I have read the GAO report. I saw the 
31 issues that GAO identified. I was pleased to see that 
according to GAO, DHS is moving in the right direction with 
respect to these issues and resolving a number of them. In 
terms of management issues, there are vacancies, ensuring an 
efficient procurement process, getting an unqualified audited 
financial statement, and dealing with some of the internal 
control issues that lead to an unqualified opinion.
    I also think that with six different accounting systems, we 
need to be sure we have what the financial people call business 
intelligence so you can identify things like unobligated funds 
across your bureaucracy. And I think DHS is moving in the right 
direction, but it is only going to continue to move in the 
right direction if somebody is pushing it, and sometimes making 
people feel uncomfortable about deadlines and about the status 
quo.
    I understand that is good leadership and I understand that 
a bureaucracy is a large, sluggish aircraft carrier that will, 
if you let it, just kind of chug along in a certain direction. 
I think good leaders need to push it, sometimes in different 
directions which can be uncomfortable for a lot of people.
    Chairman Carper. Good. Well, when you have the opportunity 
to bring new people onto your leadership team, who will have, 
in some cases, a lot of direct contact with GAO and the work 
that GAO is doing or has done, I would urge you to sensitize 
them early on what your expectations are.
    Our expectation as an oversight Committee is to make sure 
that Federal departments throughout the Federal Government do 
not ignore the work that GAO is doing. So I would ask you, do 
you fully subscribe to that as well?
    Let me just turn and talk a little bit about State and 
local stakeholders. As you know, a lot of the work that the 
Department of Homeland Security does involves partnerships, it 
involves cooperation with State and with local governments and 
with non-profits like the Red Cross.
    In fact, our Nation's homeland security is dependent on 
these partners. I am reminded every time I talk with our Red 
Cross folks in Delaware and our emergency responders, because 
they are sometimes first on the scene to respond to disasters 
and try to help people in some tough situations, making sure 
that these relationships work is an important responsibility of 
the Secretary.
    And if confirmed, let me just ask you, what are some of the 
steps that you would take to make sure the Department continues 
to work ever better with its State and local partners?
    Mr. Johnson. I recognize the importance of this. Given the 
nature of the DHS mission, given the nature of the homeland 
security mission, working effectively with State and local law 
enforcement, State and local governments, the private sector in 
the border security, national security, homeland security, 
cybersecurity realms are important. I have been struck by the 
emphasis that people up here, people within DHS have placed on 
it.
    And the attention that, if I am confirmed, they would want 
me to pay to it. It is pretty apparent to me that it is part of 
the mission. When I was a Federal prosecutor, I worked a lot 
with the New York City Police Department, not just the Federal 
law enforcement agencies, and some of my most enduring 
relationships from those days are with the cops, New York City 
Police Department that I worked with building narcotics cases. 
So I think I get that.
    Chairman Carper. OK, good. One more and that involves the 
tragedy that occurred out at Los Angeles International Airport 
(LAX) a couple of weeks ago where three transportation security 
officers, Gerardo Hernandez, James Speer, and Tony Grigsby, 
were all shot, as you will recall, during an attack at the 
airport. And sadly, Mr. Hernandez died. He left behind a widow 
and two children.
    We are deeply troubled by reports that the shooter 
specifically sought out TSA employees during the attack. I know 
it is not possible to protect against every threat, every 
Department of Homeland Security front line agent, but a bunch 
of them do face threats. But I believe we should carefully 
review this incident and see if there is anything more we can 
do to protect TSA employees.
    Let me just give a shout out to TSA. I know they take 
criticism from a lot of folks. It is a hard job. It is a job 
that they have a good leader in John Pistole. They are working 
hard to try to do it better, so they need a little bit of 
support and some sympathy for the loss of one of their 
colleagues and we extend that. But I want to say to the folks 
out there at TSA, under John Pistole's leadership, that are 
working hard, trying to do the right thing, trying to improve 
every day the work that they do, we appreciate that effort and 
we urge them keep it up.
    But if you are confirmed, what will you do to mitigate the 
risk that a TSA or a Department of Homeland Security employee 
could be the target of an attack like the one visited on 
Officer Hernandez and his colleagues?
    Mr. Johnson. Senator, I read something about that attack 
that was really upsetting, which was that apparently, 
allegedly, the shooter shot Hernandez, left, went up an 
escalator, and then came back when he realized he was not dead 
and shot him again. That is really bad.
    And I think that given the visibility of these people, 
their interaction with the public, we need to look at how to 
provide for their safety. I do not know that the answer is 
screening everybody that comes into an airport. That would be a 
very long line. But I think we need to look at better ensuring 
their safety one way or another, and it is something I expect I 
will be focused on if I am confirmed.
    Chairman Carper. I think in this instance, the family in 
New Jersey knew that something was wrong with their son and 
tried to reach out, I believe, to the authorities in the Los 
Angeles area. I think someone--the police may actually have 
gone and visited this person's apartment and he was gone. He 
had already left and was apparently on his way to the airport.
    And it just reminds me, we do not always agree on gun-
related issues, but I think one of the things we can agree on 
first is we do not want guns to be in the hands of people that 
are mentally unstable or are likely to use them to harm other 
people. I think we can all agree on that. We need to do a 
better job on background checks and get the correct answer, 
fast answer, but the right answer.
    And the second thing that comes to mind here is the adage, 
if you see something, say something. Folks, when you see your 
roommate or a member of your family is in this kind of 
situation, this kind of condition, you have to say something, 
you have to speak up, and not just ignore it or brush it aside. 
If that had happened maybe sooner, this perhaps could have been 
averted. Dr. Coburn.
    Senator Coburn. Thank you. I would add my congratulations 
to John Pistole. I think he has made remarkable improvements. 
We have a long ways to go, but there is progress being made 
there.
    I will address Tom's other issue, our problems with mental 
illness in this country. We are not handling it. We are 
limiting practicing physicians' ability to notify. Through the 
Health Insurance Portability and Accountability Act (HIPAA) 
laws, we are forbidden to do that when we know, in fact, 
somebody is dangerous. So that is an area I agree we can work 
on and we are negligent that we have not addressed that as a 
Congress and as a country.
    One of the questions that has surrounded a lot of Homeland 
Security spending is whether we spend the money on risk or we 
spread the money out. It is my feeling that the vast majority 
of our monies ought to go where the risk is the greatest. What 
are your thoughts on that?
    Mr. Johnson. I think I agree with that, Senator.
    Senator Coburn. So we ought to be risk-based. We have spent 
$37 billion on grants, which is another high-risk program, for 
Department of Homeland Security, and probably less than 25 
percent of that has gone to the highest risk areas. And part of 
that is the parochial bent of Congress that wants to make sure 
we get our fair share for each parochial representative. But it 
is a real problem.
    The President proposed, and I actually agree with this--not 
very many Members of Congress agree--of consolidating all the 
grant programs at DHS. I think that is a wise thing to do. And 
then to base it on risk. What are your feelings about that?
    Mr. Johnson. It is an issue that a number of people have 
raised with me, how we dispense grant money. It is taxpayer 
money. I used to be on the board of a community trust that did 
nothing but give out grants, and an important part of the job 
of that fiduciary responsibility was ensuring that once we gave 
out the money, the recipient is making effective use of the 
money.
    I think that in general, the professionals who I have 
consulted over the last couple of weeks seem to feel that we 
need to move in the direction of a risk-based approach to 
homeland security. And that probably entails focusing our grant 
money in the same direction as well.
    So I would be inclined to agree with you, if what you are 
saying is we need to make efficient use of our taxpayer dollars 
for purposes of homeland security.
    Senator Coburn. The other part of the grant program that is 
not present at Homeland Security is performance metrics and 
followup and elimination of grants on people who do not 
perform. The GAO has done a lot of work in terms of the unspent 
fund, the bogus expenditures, and the inappropriate 
expenditures. We have actually highlighted them.
    I am sorry Senator Ayotte is not here because New Hampshire 
and one of its small towns has a Bear Cat for its Pumpkin 
Festival paid for with a DHS grant, $80,000 that could have 
made a real difference somewhere else with a higher risk. And 
they know I am critical of it. But that is the kind of lack of 
control we have.
    Grant reform is a big deal to me because I think with the 
dollars that we are going to spend, ought to be spent to 
actually reduce risk rather than to satisfy or make a 
politician look good. I know that is antithetical to some of my 
colleagues, but that is what we are charged to do.
    I do not care if Oklahoma never gets another dollar of 
Homeland Security grants as long as the dollars that are spent 
are spent on high-risk areas, and that is the way it should be. 
Will you work with our Committee to reform the grant program? 
And will you answer my question as far as the President's 
proposal of consolidating all the grant programs?
    Mr. Johnson. Yes. I want to study that issue and I will 
answer that. Yes, sir.
    Senator Coburn. Thank you. There was one other thing that 
came up in your staff interview about which I had some 
concerns, and I have not had a chance to visit with you about 
this personally, but it was brought to my attention. In your 
questionnaire responses, you stated, I believe, that one of 
DHS's many counterterrorism priorities should be to better 
detect what the experts call broken travel outside the United 
States.
    We must do a better job and partnership with foreign 
governments of tracking the foreign travel of suspicious 
individuals before they return to the United States. When you 
were asked about this, you were asked if you meant DHS should 
track individuals under investigation or high-risk watch list 
individuals, and your response was, I am not necessarily 
referring just to suspicious individuals.
    Later you added, I would like know more from a Homeland 
Security perspective, where you have gone while you are away. 
Can you state for this Committee what role you envision for DHS 
in tracking the travel of U.S. persons, at home or abroad, that 
are not on a suspicious list or on a high-risk list? What do 
you mean by that?
    Mr. Johnson. Well, first of all, I may not have--I probably 
did not state it as artfully as I could have in the staff 
interview. I think that there are some real privacy and civil 
liberties concerns associated with travel and I appreciate 
that. I do recognize that we have a problem when it comes to 
suspicious individuals laundering their travel. That is a 
problem. It is a fact.
    I saw it happen on my watch at DOD. I think it is a blind 
spot. I am not necessarily saying we therefore need to insist 
that we track the travel of every person who leaves this 
country. There are real privacy interests associated with that, 
and I suspect we would have a real uproar if we tried to do 
that.
    But I think this is a blind spot. I think it is a real 
problem, but getting to a better place, obviously, involves a 
balance. So I recognize that.
    Senator Coburn. All right. You have some significant 
experience with acquisitions. As a matter of fact, you alluded 
to Senator Tester you know how the game is played. If you want 
a certain vendor to get it, you write the RFP so only that 
vendor can get it. We have problems across the Federal 
Government because some of our most experienced acquisition 
specialists have retired or are retiring.
    What do you envision trying to install at Homeland Security 
to, No. 1, improve our acquisition process; No. 2, hold it 
accountable; and No. 3, also in terms of information 
technology, which is a problem across all the Federal 
Government, 50 percent of what we buy we waste. It is two and a 
half times worse than that in the private sector.
    Can you comment at all on what you would envision of 
firming up our acquisition protocols and our capability, and 
also holding people responsible for when they flub up?
    Mr. Johnson. I think it starts with quality personnel. At 
the Department of Defense, I saw a statistic that suggested 
that we were losing quality personnel in the acquisition 
community there, and it was reflected in some of the results we 
had. So I think quality personnel for starters.
    Information technology is a world we are getting into with 
increasing frequency and we have some issues there across the 
entire Federal Government. I recognize the importance of an 
efficient quality acquisition program and quality acquisition 
community for the benefit of the taxpayer, and so, I know it is 
something I am going to have to focus on. I have read enough 
about some of the problems DHS has had over the last 10 years, 
Senator.
    Senator Coburn. Thank you. I am through. I will have a 
couple of questions for the record.
    Chairman Carper. One of our colleagues who was unable to be 
with us today is Senator Mary Landrieu of Louisiana, whom I 
know you have met with.
    Mr. Johnson. Yes.
    Chairman Carper. She is chairing a hearing on the Small 
Business Committee at the same time. She had hoped to be able 
to come and ask some questions and express her support for your 
nomination.
    Two issues that we really have not drilled down on, one of 
those is cybersecurity, and it is a very important issue. And 
it is one I am not going to drill down into a great extent 
today, but I talked to you earlier about Homeland Security as a 
team sport. I used the term sport loosely, but it is a team 
effort.
    Cybersecurity is as well. It is not just the government, it 
is not just the Federal Government. It is the private sector. 
It is State and local as well and for us as individuals. But 
the Department of Homeland Security does play on that field, as 
you know, has real responsibilities. We are working with the 
Administration, working with the private sector to try to 
charter a path forward.
    I think one of the smartest things the Administration did 
when the President promulgated his Executive Order on 
cybersecurity almost a year ago now, was to put in charge the 
National Institute of Standards and Technology (NIST), in 
charge of the Department of Commerce to actually reach out to 
the private sector, and especially with those that are dealing 
with critical infrastructure and say, What are your best ideas? 
What do you think the best practices are for protecting 
especially our critical infrastructure?
    The private sector has been concerned that the government 
is just going to come in and tell them what to do and mandate 
best practices. The private sector, for the most part, is not 
interested in that. They want to be fully involved as partners, 
and I think NIST is doing a very nice job of that outreach. 
They are working on their framework, as you probably know, and 
even the U.S. Chamber of Commerce, which earlier proposed last 
year comprehensive cybersecurity legislation says the 
Department of Commerce, through NIST, is actually doing a good 
job.
    There are things that the Department of Homeland Security 
needs to do. Dr. Coburn and I and our staffs have been working 
literally for months on issues including the Federal 
Information Security Modernization Act (FISMA), on issues 
involving the ability of the Department of Homeland Security to 
track the kind of skilled and talented employees they need in 
this arena, the kind of investments that we should be making in 
terms of research and development to better defend ourselves in 
the cybersecurity space.
    And also, just, how do we do a better job of sharing good 
ideas and making sure that we are prepared should there be an 
attack on our electric grid, on our utility systems, on our 
telecommunication systems, financial services systems? How do 
we better protect those critical infrastructures? The 
Department of Homeland Security plays in all those arenas.
    So, once you have a chance to get confirmed, get your feet 
wet, Dr. Coburn and I will probably want to spend some time 
with you, especially to talk about that, and even though we did 
not today, it is real important, as you know.
    The other thing you raised a little bit, and I think in one 
of your comments, you talked about lone wolves. I worry about 
al-Qaeda, I worry about their affiliates, we all do. I also 
worry about the folks that become radicalized, are home-grown 
right here, and then go off maybe to other countries, or maybe 
do not, and then they come back here and visit real horrors on 
our people. That is a tough one. That is a tough one to deal 
with. And so, that is one of the balls we need to keep our eye 
on. I am glad you have.
    Usually when I conclude a hearing like this, I will ask the 
witness if they have a closing comment that they might like to 
make, something that has come to mind. You have been asked 
questions, you have had a chance to reflect on what we have not 
asked, and if you would like to just make not a long closing 
statement, but a relatively short one, I think this might be a 
good time to do that, and then I will say some words I am 
supposed to say at the end of a hearing.
    And if Dr. Coburn does not have anything else, we will call 
it a day. But just say any closing thoughts you would like to 
share with us.
    Mr. Johnson. Senator, thank you for your time and 
attention. Working with your staff to get to today has been a 
real pleasure. All the staff of this Committee have been very 
professional. I have learned a lot from the courtesy visits I 
have had with the Members of this Committee and their staffs.
    Some people think this process is a formality, it is a 
burden. I actually believe in this process because, for the 
benefit of the nominee, you learn the issues that Congress is 
concerned about, what is on your mind, what your priorities 
are. Occasionally you are able to extract from the nominee 
certain pledges, which is probably a good thing. You have my 
attention.
    And if I am confirmed, I pledge to have a very open, 
transparent relationship with the Chair and the Ranking Member 
and the other Members of this Committee. I look forward to 
working with you, and I will dare to predict that after my 
tenure, the people on this Committee will say that Johnson was 
somebody that worked well with us and in a bipartisan fashion.
    So I hope you will vote to confirm me. Thank you.
    Chairman Carper. Dr. Coburn.
    Senator Coburn. I just have two final comments. One of the 
things I have noticed in my years in Washington is when we get 
somebody great in a position, as soon as we have an 
Administration turn over, we lose them. And so, one of the 
things I would like for you to think about, and your family to 
think about is, as you get into this role, as I know you will, 
and you become excellent at it, is the very well consideration 
of staying there when, in fact, there is another Administration 
come 2016 so that we do not lose all this tremendous experience 
and gray hair and have to retrain another leader.
    I do not expect you to make a commitment to that, but I 
want to put that in your mind to think about. When we see 
quality people in quality positions, it should not matter what 
party they are in if they are doing an effective job. We ought 
to take advantage of what they have learned and their 
leadership.
    The second comment I would have for you, I told you I would 
have an alternative viewpoint for you and I am going to present 
what I think it should be, your reading, to hear some of our 
thoughts on what is going on, and it is a countervailing view. 
Some of it you have probably already read, but I would 
appreciate it if you would take a look at it, and it is what we 
have looked at on Homeland Security through the last 6 years.
    Mr. Johnson. I am happy to----
    Senator Coburn. So I have a present for you.
    Mr. Johnson. Thank you, sir. Thank you very much. On your 
first point, at this point, that is all them. That is all up to 
them. Thank you.
    Chairman Carper. I was watching your wife's lips carefully 
as Dr. Coburn suggested a second tour, and I thought she was 
saying, don't you dare. I remember when we were having a 
confirmation hearing for Lisa Jackson at the Environmental 
Protection Agency a couple of years ago, I said to her--she had 
children just a little younger than your son and daughter. And 
I remember I said to her, at the end of the hearing--her 
husband was with her, too, and their two children.
    I said to her, take a good look, Lisa. Take a good look at 
your children because this is the last time you are going to 
see them until Christmas. And they kind of blanched and I 
said--I told her, I was just kidding, but they were not sure. 
You will see them before Christmas. You will hopefully see them 
well before Thanksgiving.
    But this is, as we know, a demanding job, a really 
important job. Dr. Coburn leaned over to me early in the 
hearing and he said, I think he has the potential of being the 
best Secretary for this Department we have ever had. That is 
saying a lot, because you follow some very good people. And Tom 
Coburn does not always say that about the people who appear 
before us.
    After we get you confirmed, I am encouraged that we will be 
able to--you need to go to work, we need to go to work to get 
the team around you that you need. And given to deal with stuff 
like this, to read and all these requests that you have gotten 
from my colleagues, you are going to need all the help you can 
get just to keep your word on the pledges and promises that you 
have made. So there is a lot to do and a lot to do beyond all 
of that.
    Again, if your mom and dad are out there watching this, 
tell them they done good in raising their kids and we are 
grateful to them and to you for your family to be here with you 
today. It is just great to meet all of you. We look forward to 
working and doing good things for our country for the security 
of our homeland, but really for security of our people.
    The last thing, the people who work at DHS, morale is not 
good. We are going to work hard to make sure it gets better, 
and when they do a good job, to make sure they get some credit 
for that and see if we cannot do a little better job, a better 
job in consolidating folks. We have people spread out all 
across the place, in Washington and across the country. We want 
to try to get some of them on the same campus so they actually 
can feel more like a team, too.
    Mary Landrieu, I mentioned. Mary is not here. She chairs 
the Appropriations Subcommittee on Homeland Security. She is a 
huge piece of this and the idea of maybe you and Dr. Coburn, 
Senator Landrieu, and myself meeting together from time to time 
just to see how we are doing, see what we can do better, I 
think that might be of great value to you and the folks you 
lead in our country.
    Mr. Johnson has filed responses to biographical and 
financial questionnaires, answered prehearing questions 
submitted by the Committee, and had his financial statements 
reviewed by the Office of Government Ethics. Without objection, 
this information will be made part of the hearing record, with 
the exception of the financial data which are on file and 
available for public inspection in the Committee offices.
    Without objection, the record will be kept open until noon 
tomorrow for the submission of any written question or 
statement for the record. Unless, Dr. Coburn, you have 
anything?
    Senator Coburn. I have a present to give him.
    Chairman Carper. All right. I know it is not Christmas yet, 
and you will get other presents. Maybe ones that you will 
welcome even more than this one, but there is probably some 
good in this one, too.
    Dr. Coburn, thank you very much. Mr. Johnson, good luck and 
God bless. We are adjourned.
    [Whereupon, at 12:20 p.m., the hearing was adjourned.]













                            A P P E N D I X

                              ----------                              


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]

</pre></body></html>
